<html>
<title> - SECURING AMERICA'S ELECTIONS PART II: OVERSIGHT OF GOVERNMENT AGENCIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
 SECURING AMERICA'S ELECTIONS PART II: OVERSIGHT OF GOVERNMENT AGENCIES

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 22, 2019

                               __________

                           Serial No. 116-60

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         


               Available via: http://judiciary.house.gov
               
               
               
               
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 45-400               WASHINGTON : 2021                
 
 
               
               
                       COMMITTEE ON THE JUDICIARY

                    JERROLD NADLER, New York, Chair
               MARY GAY SCANLON, Pennsylvania, Vice-Chair

ZOE LOFGREN, California              DOUG COLLINS, Georgia, Ranking 
SHEILA JACKSON LEE, Texas                Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM MCCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
SYLVIA R. GARCIA, Texas              BEN CLINE, Virginia
JOE NEGUSE, Colorado                 KELLY ARMSTRONG, North Dakota
LUCY MCBATH, Georgia                 W. GREGORY STEUBE, Florida
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        PERRY APELBAUM, Majority Staff Director & Chief Counsel
                BRENDAN BELAIR, Minority Staff Director
                
                
                            C O N T E N T S

                              ----------                              

                       Tuesday, October 22, 2019

                                                                   Page

                           OPENING STATEMENTS

The Honorable Mary Gay Scanlon, Vice-Chair, Committee on the 
  Judiciary......................................................     1
The Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary
  Written Testimony..............................................     6
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary
  Written Testimony..............................................    48

                               WITNESSES

Matt Masterson, Senior Cybersecurity Advisor, Department of 
  Homeland Security
  Oral Testimony.................................................    12
  Written Testimony..............................................    14
Nhikki Floris, Deputy Assistant Director, Counterterrorism, 
  Federal Bureau of Investigation
  Oral Testimony.................................................    22
  Written Testimony..............................................    24
Adam Hickey, Deputy Assistant Attorney General, National Security 
  Division, Department of Justice
  Oral Testimony.................................................    29
  Written Testimony..............................................    31
Ben Hovland, Vice Chair, U.S. Election Assistance Commission
  Oral Testimony.................................................    42
  Written Testimony..............................................    44

          LETTERS, STATEMENTS, ETC. SUBMITTED FOR THE HEARING

An article for the record from The Hill, submitted by the 
  Honorable Matt Gaetz...........................................    72
An article for the record from The New York Times, submitted by 
  the Honorable Matt Gaetz.......................................    78
An article for the record from The Kyiv Post, submitted by the 
  Honorable Matt Gaetz...........................................    86
A report for the record from Graphica, submitted by Joe Neguse...   104

                                APPENDIX

Questions for the record, Matt Masterson, Senior Cybersecurity 
  Advisor, Department of Homeland Security.......................   146
Responses for the record, Adam S. Hickey, Deputy Assistant 
  Attorney General...............................................   153
Questions for the record, Ben Hovland, Vice-Chair Election 
  Assistance Commission..........................................   168
Questions for the record, Nikki Floris, Deputy Assistant 
  Director, Counterintelligence Division.........................   173
Responses for the record, Masterson, senior cybersecurity 
  advisor, the Department of Homeland Security...................   178


 SECURING AMERICA'S ELECTIONS PART II: OVERSIGHT OF GOVERNMENT AGENCIES

                              ----------                              


                       Tuesday, October 22, 2019

                        House of Representatives

                       Committee on the Judiciary

                             Washington, DC

    The Committee met, pursuant to call, at 10:10 a.m., in Room 
2141, Rayburn Office Building, Hon. Mary Gay Scanlon, 
presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Deutch, Cicilline, Jayapal, Correa, 
Scanlon, Garcia, Neguse, McBath, Stanton, Dean, Murcarsel-
Powell, Escobar, Chabot, Gohmert, Gaetz, Biggs, Lesko, 
Reschenthaler, Cline, and Steube.
    Staff present: Arya Hariharan, Deputy Chief Oversight 
Counsel; David Greengrass, Senior Counsel; Madeline Strasser, 
Chief Clerk; Moh Sharma, Member Services and Outreach Advisor; 
Sarah Istel, Oversight Counsel; Priyanka Mara, Professional 
Staff Member/Legislative Aide; Kerry Tirrell, Oversight 
Counsel, Antitrust, Commercial, and Administrative Law 
Subcommittee; Matt Robison, Counsel, Courts and Intellectual 
Property Subcommittee; Brendan Belair, Minority Staff Director; 
Bobby Parmiter, Minority Deputy Staff Director/Chief Counsel; 
Jon Ferro, Minority Parliamentarian/General Counsel; Ryan 
Breitenbach, Minority Chief Counsel, National Security; and 
Erica Barker, Minority Chief Legislative Clerk.
    Ms. Scanlon. The House Committee on the Judiciary will come 
to order.
    Without objection, the chair is authorized to declare 
recesses of the Committee at any time.
    We welcome everyone to this morning's hearing on Securing 
America's Elections Part II: Oversight of Government Agencies. 
I will now recognize myself for an opening statement.
    Last month, this Committee held part one of a series of 
hearings on securing America's elections. In that hearing, 3 
witnesses, who had been jointly selected by the committee, 
testified unequivocally that our Nation's elections are under 
attack. Debora Plunkett, former director on the National 
Security Council under both President Clinton and President 
George W. Bush, warned, ``We must bold, decisive, and must take 
expeditious steps to address cyber threats. We must treat 
election security as imperative for safeguarding our 
democracy.'' Secretary of State Kathy Boockvar from the 
Commonwealth of Pennsylvania elaborated: ``Election security is 
a race without a finish line, and our adversaries are not 
slowing down.''
    This testimony has been confirmed by the leaders of our 
intelligence community. Last month, the director of national 
intelligence testified that, ``Foreign actors will view the 
2020 elections as an opportunity to advance their interests. We 
expect them to refine their capabilities and add new tactics as 
they learn from each other's experiences and efforts in 
previous elections.'' In short, there is no question that our 
elections, the cornerstone of our free and democratic society, 
are exposed. Protecting our Nation's democratic processes from 
foreign attack must be among our top priorities, and we are 
committed to doing that work.
    Today we have representatives from the four Federal 
agencies leading the charge on election security: The 
Department of Homeland Security, the Federal Bureau of 
Investigation, the Department of Justice, and Election 
Assistance Commission. At their core, elections are run at the 
State and local level, but our Federal Government must provide 
critical support to help States to defend themselves from 
hostile foreign actors. Protecting our elections requires a 
whole of society approach that relies on coordinated actions by 
government agencies at all levels, including the agencies 
represented here today.
    Federal agencies responsible for protecting our elections 
have made significant progress since 2016. These efforts are 
important and commendable, but significant vulnerabilities in 
our system remain. To start, our efforts must be integrated and 
coordinated. A simple Google search of ``report election 
security issues'' turns up results for over 20 different groups 
across these agencies and others. There must be clear lines of 
authority to ensure that States know which of the multiple 
programs across these agencies is in charge.
    Equally important, we must do more to ensure better Federal 
and State collaboration. That requires earning the trust of 
States. At a public speech on October 3rd, 2018, DHS Director 
Krebs explained that in 2016 when the Federal Government called 
State officials to alert them of threats, there was, as he 
said, no trust and there was no certainty or confidence in the 
ability of the Federal Government. One way to strengthen trust 
is through enhanced transparency.
    In 2016, the specific intent of the Russians was not 
initially made public. Today we can do better. We can educate 
State and local officials and the public about influence 
operations. By bringing our adversaries' tactics to light, we 
can prevent them from succeeding. In addition, we must ensure 
that the development and maintenance of our systems matches the 
evolving nature of cyber threats. For example, current EAC 
Federal guidelines for our certification processes were created 
in 2005 and are woefully out of date. As our witness, Mr. Byrd 
of Microsoft, testified last month, ``This process is more than 
a decade old, and it is too slow and too burdensome to enable 
voting officials to respond as quickly as needed to our agile 
adversaries.''
    Finally, and most importantly, we must ensure that State 
and local officials, the frontline defenders of democracy, have 
the resources and support they need to protect our systems. DHS 
has made it clear that it requires additional resources to 
fulfill this task. It has requested, for example, 20 additional 
advisors to help States in anticipation of the 2020 election 
cycle. On May 15th, 2019, the EAC likewise testified before the 
Senate that the U.S. currently lacks sufficient funding in 
critical areas to protect our 2020 elections.
    Unfortunately, however, President Trump and his 
Administration, rather than listening to the warnings of 
Federal agencies about the seriousness of the threat picture 
and request for more resources to secure our elections, has 
done the opposite. The Trump Administration has cut senior 
cyber positions, downsized by half DHS' election security 
teams, and proposed significant budget cuts to DHS' major 
election security program. All these actions leave us more 
vulnerable to the ongoing threat to our democracy. We will not 
let this happen. Elections cannot be a partisan issue. They 
must be an American issue.
    This Committee is committed to working together to protect 
our democracy from all threats to our elections in all forms, 
whether to our physical election infrastructure or the ongoing 
disinforma-tion campaigns coming from adversaries like Russia. 
I thank each of our witnesses for being here today. My 
colleagues and I are looking forward to hearing your testimony 
about your ongoing efforts to secure our elections and what 
important work remains to be done.
    Without objection, the Ranking Member's statement, Doug 
Collins, will be placed in the record, and all other opening 
statements will be included in the record.
    [The information follows:]

      

                  MR. COLLINS FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Scanlon. I will now introduce today's witnesses. Matt 
Masterson is the senior cybersecurity advisor at the Department 
of Homeland Security, where he manages election security under 
the National Protection and Programs Directorate. From 2014 to 
2018, he served as a U.S. Election Assistance Commissioner. 
Prior to his appointment, Mr. Masterson served as interim chief 
of staff for the Ohio secretary of state, deputy chief 
information officer, and deputy director of elections. Mr. 
Masterson received his B.S. and B.A. from Miami University in 
Oxford, Ohio, and his J.D. from the University of Dayton School 
of Law.
    Nikki Floris is the deputy assistant director of the 
Counterintelligence Division of the FBI, where she oversees the 
intelligence branch, which includes the Foreign Influence Task 
Force System. Ms. Floris entered the Bureau in 2005 as an 
intelligence analyst and served in many other positions, 
including deputy assistant director of Operations Branch III in 
the Counterterrorism Division, where she oversaw terrorism 
financing operations, strategic operations, and 
counterterrorism analysis. Ms. Floris has a bachelor's degree 
in psychology from the University of Rhode Island and a 
master's degree in criminology from George Washington 
University.
    Adam Hickey is a deputy assistant attorney general of the 
National Security Division at the Department of Justice. In 
that role, he manages the Division's effort to combat national 
security threats, including threats to our election systems. 
Before joining the Department of Justice, Mr. Hickey clerked 
for Judge Jed Rakoff of the U.S. District Court for the 
Southern District of New York, and Judge Robert Katzmann of the 
U.S. Court of Appeals for the Second Circuit. Mr. Hickey 
received his bachelor's degree from Harvard College and his 
J.D. from Yale Law School.
    Ben Hovland is the vice chair of the Election Assistance 
Commission, where he is the designated Federal offer for the 
Technical Guidelines Development Committee, which develops the 
voluntary voting system guidelines. Before being appointed vice 
chair, Commissioner Hovland served as the acting chief counsel 
for the U.S. Senate Committee on Rules and Administration. 
Commissioner Hovland received his B.A. from the University of 
Central Arkansas and his J.D. from the University of Oregon.
    Please note that each of your written statements will be 
entered into the record in its entirety. Accordingly, I ask 
that you summarize your testimony in 5 minutes. To help you 
stay within that time, there is a timing light on your table. 
When the light switches from green to yellow, you have 1 minute 
to conclude your testimony. When the light turns red, it 
signals your 5 minutes have expired.
    We want to thank you all for participating in today's 
hearing. If you would please rise, I will begin by swearing you 
in.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    [A chorus of ayes.]
    Ms. Scanlon. You may be seated. Let the record show that 
the witnesses have answered in the affirmative.
    All right, Mr. Masterson, you may begin, and you have to 
push to button to turn your microphone on before you start. 
Thank you.

                 TESTIMONY OF MATTHEW MASTERSON

    Mr. Masterson. Well, thank you, and good morning, Members 
of the committee. Thank you for this opportunity to testify 
regarding the cybersecurity and infrastructure security 
agencies' efforts to help secure our election infrastructure 
across this country. My name is Matt Masterson. I'm the 
election lead for CISA and the former chair of the U.S. 
Election Assistance Commission, as well as an election official 
in the State of Ohio.
    CISA has a strong relationship with our federal partners 
seated here at the table and with State and local election 
officials across the country. Our election-related mission is 
clear: To support election officials and their private sector 
partners to identify and manage risk to their systems. 
Elections are run at the State and local level by dedicated 
professionals across America's more than 8,800 election 
jurisdictions, and we work to ensure those officials don't have 
to defend themselves from sophisticated and persistent threats 
on their own.
    Over the last 3 years, we've worked tirelessly to 
strengthen our partnership with the election community. We 
already provide free and voluntary resources and services to 
all 50 States, over 2,100 local and territorial election 
jurisdictions, 6 election associations, 12 election technology 
providers, and political organizations, including presidential 
campaigns. Our approach has been and continues to be threefold: 
one, making sure the election community has the information 
they need to defend their systems: Two, making sure they have 
the technical support and tools to identify and mitigate risks 
to their election infrastructure; and three, building enduring 
partnerships to advance security efforts together.
    CISA is laser focused on building scalable, repeatable 
mechanisms to dramatically grow our information-sharing 
capabilities. We share contextualized threat intelligence and 
actionable information through our close partnerships with the 
intelligence community, law enforcement, and the private 
sector. More importantly, State and local election officials 
are sharing what they see on their networks with us. We deploy 
intrusion detection capabilities, or Albert sensors, to provide 
real-time detection capabilities of malicious activity on 
election infrastructure in all 50 States.
    Second, we provide technical support and services to 
election officials and vendors. As we refine our understanding 
of election officials' needs, we are shifting to capabilities 
that are quicker, lesser intrusive, and can scale to more 
jurisdictions. For instance, in 2018 and 2019, we deployed a 
remote penetration testing capability, thanks in part to the 
funding provided by Congress. This remote penetration testing 
capability allows us to identify risks and vulnerabilities to 
network-connected election systems without having to deploy 
teams into local election offices, and without interrupting 
both their time and people.
    CISA has also been working closely with election technology 
providers to ensure that election systems and other 
technologies undergo testing to discover and fix 
vulnerabilities in their software. This scalability is critical 
because while our initial efforts in 2016 were primarily 
targeted at State election officials, we recognize the need to 
increase our support to counties and municipalities who operate 
elections. For example, the Last Mile Initiative provides no-
cost information sharing tailored to those jurisdictions to 
identify cyber risks to their infrastructure and a checklist of 
action items to mitigate those risks.
    The final area of focus has been building on enduring 
partnerships towards our collective defense. It may seem 
mundane, but governance, communication, coordination, training, 
and planning are the critical foundation elements of our 
efforts to secure our Nation's elections. For this election 
cycle, CISA has built off the lessons learned for the 2018 
election and is expanding our work to prioritize the following 
lines of effort: One, expanded engagement to local election 
officials. We continue to work with election officials to 
improve both their and our understanding of risk to their 
systems. For instance, in June of this year, we did our second 
annual tabletop devote exercise where 47 States, thousands of 
local election officials, the private sector, and Federal 
Government, worked together through scenarios to share 
information and understand how we would all collectively 
respond to threats to our election infrastructure. With a 
better understanding of risk, we can identify and provide the 
resources they need to secure their election systems.
    CISA has expanded our level of engagement and sharing of 
best cybersecurity practices with political organizations as 
well, including the DNC and RNC. CISA has joined FBI and ODNI 
in offering briefings to the Presidential campaigns who 
register with the FEC and has engaged directly with campaigns 
to offer our services. CISA, in coordination with our 
interagency partners, is committed to helping Americans 
recognize and avoid foreign disinformation operations impacting 
our elections through innovative efforts, like our War on 
Pineapple Campaign, where we educated Americans on the tactics 
of foreign influence campaign using a topic everyone can relate 
to, the divisive issue of pineapple on pizza. We will continue 
to put out educational material to build resilience in the 
American public on foreign influence operations.
    Finally, we're working closely with our intelligence 
community and the private sector to increase the quantity, 
quality, and timeliness of intelligence analysis and production 
at the unclassified levels to help election officials and the 
public identify and expose foreign influence operations. We at 
CISA are committed to working with Congress to ensure our 
efforts cultivate a safer, more secure, and resilient homeland.
    Once again, thank you for this opportunity to appear before 
the committee, and I look forward to your questions. Thank you.
    [The statement of Mr. Masterson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Scanlon. Thank you very much. Ms. Floris?

                   TESTIMONY OF NIKKI FLORIS

    Ms. Floris. Thank you. Good morning, Members of the 
committee. Thank you for the opportunity to appear before you 
today to discuss the FBI's effort to secure America's 
elections. As you've just heard, I'm Nikki Floris, deputy 
assistant director for the FBI's Counterintelligence Division.
    The FBI is the Federal lead for identifying and combatting 
malign foreign influence operations which target U.S. 
democratic institutions and values. This also includes the 
investigation of election-related cyber intrusions and crimes. 
To achieve their strategic geopolitical objectives, foreign 
adversaries use malign influence operations to shift U.S. 
policy, distort U.S. political sentiment and discourse, 
undermine confidence in U.S. democratic institutions and 
values, or interfere with U.S. electoral processes.
    Most widely reported these days have been the attempts by 
foreign adversaries to discredit U.S. individuals and 
institutions using false personas and fabricated stories on 
social media platforms. These operations have aimed to spread 
disinformation, sow civil discord, and ultimately undermine the 
confidence in our democratic institutions and values. Foreign 
influence operations involve a wide spectrum of activities. 
However, it is the subversive, undeclared criminal and coercive 
aspects of these activities that forms the basis of FBI 
investigative interests. It is why we talk about malign foreign 
influence. This is by no means a new problem. However, global 
interconnectedness and online anonymity have changed the 
character of the overall foreign influence threat and how the 
FBI and its partners must address it.
    In my role at the FBI, I oversee the Foreign Influence Task 
Force, or what we call the FITF. In the fall of 2017, Director 
Wray established the FITF to combat foreign influence 
operations targeting the United States. The FITF is led by the 
Counterintelligence Division and is comprised of agents, 
analysts, and professional staff from the Counterintelligence, 
Counterterrorism, Cyber, and Criminal Investigative Divisions. 
Following the 2018 midterm elections, the FBI expanded the 
scope of the FITF. Previously our efforts were focused solely 
on the threat posed by Russia. However, we now have units 
working to confront malign foreign influence operations, not 
just from Russia, but also from China, Iran, and other global 
adversaries. We have refined and focused our strategy.
    Through the FITF, the FBI takes a three-pronged approach to 
the serious threat. The first prong focuses on our 
investigations and operations. The FITF works with the FBI's 56 
field offices to open investigations with a foreign influence 
nexus. You might think of the FITF as a hub with FBI field 
offices and its personnel as the spokes. Our investigative 
approach seeks to impose costs on our adversaries, specifically 
key influencers, and enablers. Investigations with a cyber 
nexus are worked collaboratively with the FBI Cyber Division 
and Cyber Task Forces. This way, the FBI can quickly respond to 
threats to election infrastructure. Moreover, the FBI Cyber 
Division works closely with the U.S. intelligence community to 
work to determine attribution.
    The second prong centers on information and intelligence 
sharing. The FBI works closely with our fellow intelligence 
community agencies as well as with State and local law 
enforcement partners and election officials to share 
intelligence to help, disrupt, and deter our adversaries. In 
2018, that effort led to the creation of Protected Voices, a 
joint initiative between the FBI, Department of Justice, 
Department of Homeland Security, United States Secret Service, 
and the ODNI. Through Protected Voices, we developed a series 
of videos to help political campaigns better understand this 
threat and made them available through the FBI's public 
website.
    In the past months, we have expanded Protected Voices, 
providing webinars and in-person briefings to the Presidential 
campaigns on cyber and malign influence threats. Currently, we 
are expanding the audience to include congressional campaigns 
and the general public. We collaborate extensively with our 
U.S. government partners to provide information to State and 
local governments, election officials, private election 
vendors, and social media companies so that they can harden 
their systems against cyberattacks. Collaboration builds a 
common understanding of the threat landscape.
    The last prong of our approach is private sector 
partnerships. Technology companies have a frontline 
responsibility to secure their own networks, products, and 
platforms. We're doing our part by providing actionable 
intelligence to better enable them to address abuse of their 
platform by foreign actors. The FBI has established 
relationships with these technology and social media companies 
and maintains an ongoing dialogue to enable a rapid exchange of 
threat information.
    Across all these prongs, the FBI is constantly reviewing 
the effectiveness of its coordination and its outreach. To our 
knowledge, no foreign government has attempted to tamper with 
U.S. vote counts. However, even doubts about whether it has 
occurred can be damaging. We do know our adversaries are 
actively trying to influence electoral processes and outcomes 
in advance of the 2020 election. While our focus today is on 
election security, I want to note these adversaries seek to 
influence our national policies and public opinions in 
important ways beyond just elections.
    We look forward to continuing this important work and 
appreciate the support of this committee. Thank you again for 
the opportunity to appear before you today. I'm happy to answer 
any questions you may have.
    [The statement of Ms. Floris follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
 Ms. Scanlon. Thank you very much. Mr. Hickey?

                    TESTIMONY OF ADAM HICKEY

    Mr. Hickey. Good morning, distinguished Members of the 
committee, and thank you for the opportunity to testify on 
behalf of the Justice Department concerning our efforts to 
ensure the safety and security of our Nation's election 
infrastructure and to combat malign foreign influence.
    By ``malign foreign influence,'' I'm referring to covert 
actions by foreign governments intended to affect U.S. 
political sentiment and public discourse, sow divisions in our 
society, or undermine confidence in our democratic 
institutions. And these can range from computer hacking that 
targets election infrastructure or political parties to state-
sponsored media campaigns. This issue, protecting our Nation's 
democratic processes, has been and remains a top priority of 
the Department. Our principle role here is the investigation 
and prosecution of Federal crimes, but malign foreign influence 
efforts extend beyond efforts to interfere with elections, and 
they require more than law enforcement responses alone.
    Recognizing that, we approach this national security threat 
the same as any other, by using our own legal tools as well as 
supporting the tools and authorities of others. To the best of 
our ability, we try to prevent crimes from occurring or disrupt 
them in progress, in part by sharing information with people 
and institutions to allow them to better protect themselves.
    Reflecting the priority of these issues, last year the 
Attorney General's Cyber Digital Task Force analyzed the types 
of foreign influence operations and laid out a framework to 
guide our responses. Since the 2016 election, we have taken a 
number of steps to combat malign foreign influence and support 
secure elections. First, as an intelligence-driven organization 
and member of the intelligence community, the FBI pursues tips 
and leads, including from classified information, to identify, 
investigate, and disrupt illegal foreign influence activities. 
To that end, and as DAD Floris already explained, the FBI 
established the Foreign Influence Task Force to lead its 
response to ensure information flow, resource allocation, and 
coordination, both within the Department and among the 
Department, our Federal partners, and the private sector.
    Second, together with other agencies through a series of 
outreach and education efforts, we've been helping public 
officials, candidates, and social media companies to harden 
their own networks and platforms against malign foreign 
influence operations. Third, we have improved enforcement of 
the Foreign Agents Registration Act, one of the statutory tools 
that helps ensure transparency in the activities of foreign 
entities and individuals. Effective FARA enforcement makes it 
more difficult for those entities and individuals to hide their 
role in activities occurring with the United States.
    Fourth, our investigations have led to a number of criminal 
charges and other enforcement actions that have exposed malign 
influence efforts by foreign states and their proxies. While we 
work with other nations to obtain custody of foreign defendants 
wherever possible, just the charges themselves help educate the 
American public about the threats that we face. Fifth, our 
investigations have supported the actions of other U.S. 
government agencies, such as financial sanctions imposed by the 
Secretary of the Treasury. Finally, even outside the context of 
criminal charges, we have used the information from our 
investigations both to warn and to reassure potential victims 
and the general public alike about malign foreign influence 
activities.
    Now, victim notifications, defensive counterintelligence 
briefings, and public safety announcements are traditional 
Department activities, but they must conduct with particular 
sensitivity in the context of foreign influence and elections. 
In some circumstances, exposure can be counterproductive or 
otherwise imprudent. Given countervailing considerations, the 
Department has adopted a public policy for evaluating whether 
and how to disclose malign foreign influence activities, and 
among its first principles, partisan political considerations 
must play no role in our decisions.
    Our adversaries will undoubtedly change their tactics, and 
we will need to be nimble in our response, but the framework we 
have developed to respond will have staying power. As you can 
see, the Department plays an important role in combatting 
foreign efforts to interfere in our elections. There are limits 
to our role and that of the Federal Government as a whole. 
Combatting malign foreign influence requires a whole of society 
approach that relies on coordinated actions by government 
agencies at various levels, support from the private sector, 
and the active engagement of an informed public.
    Thank you again, and I look forward to your questions.
    [The statement of Mr. Hickey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Scanlon. Thank you very much. Mr. Hovland?

                    TESTIMONY OF BEN HOVLAND

    Mr. Hovland. Good morning, Members of the committee. I 
thank you for the opportunity to testify before you this 
morning to detail the work of the U.S. Election Assistance 
Commission, better known as the EAC, to fulfill its mission 
under the Help America Vote Act, or HAVA. I also appreciate 
this opportunity to highlight the great work of State and local 
election officials around the country.
    As you know, our Nation's elections are run at the State 
and local levels, with each of the 50 States and U.S. 
territories running elections in different ways. Election 
officials in over 8,000 local jurisdictions are ultimately 
responsible for conducting our elections, and their work truly 
protects and ensures the most fundamental pillar of our 
democracy, the vote.
    Since 2016, there has been enormous increase and focus on 
the security of our elections, which is just one of the many 
responsibilities' election officials must address. I'm pleased 
to report from my vantage point the elections community has 
responded in an impressive fashion considering the challenges 
we face. Nearly every conference I attend while traveling 
around the country has a substantial focus on security and 
protecting the integrity of elections is a constant topic in 
meetings with election administrators, our Federal partners, 
and external stakeholders.
    Even so, we need to ask ourselves a key question: Will that 
be enough if election officials do not have the sustained 
resources they need to defend our democracy against potential 
threats? The good news is that following the Department of 
Homeland Security's designation of election infrastructure as 
critical infrastructure, there has been a sea change in 
information sharing between the Federal Government and State 
and local officials. This includes the creation of a Government 
Coordinating Council, which brings together State and local 
officials with Federal partners, as well as a Sector 
Coordinating Council, which has helped organize private sector 
vendors and nonprofit entities that support local election 
officials.
    We've also seen the creation of the Election Infrastructure 
Information and Sharing Analysis Center, or EIISAC, which now 
has over 2,100 Members, including every State chief election 
official's office. The deployment of Albert monitors, hardening 
of systems, increased trainings, and promotion of tabletop 
exercises around cyber events have all exponentially increased 
since 2016. The Fiscal Year 2018 appropriations of $380 million 
of HAVA funding, which the EAC distributed within months of its 
allocation, has largely contributed to these improvements. It 
doesn't cover everything election officials need, but States 
have had the ability to essentially choose from a menu of 
reforms, improvements, and priorities that could address their 
most pressing needs and vulnerabilities.
    As Chairwoman McCormick testified earlier this year, the 
EAC projects that 85 percent of the Fiscal Year 2018 money will 
be spent in advance of 2020. We've seen some States use the 
funding to replace aging or paperless equipment. Other States 
have replaced their statewide voter registration database or 
added additional security measures, like multi-factor 
authentication. Some have hosted essential training and 
tabletop exercises ahead of 2020 to give election officials a 
hands-on experience that can help them prepare for various 
threats.
    One of my personal favorite uses of the Fiscal Year 2018 
funding is the implementation of cyber navigator programs. 
Essentially, the State recognizes that many local jurisdictions 
do not have the capacity or need for a full-time election 
cybersecurity expert, so the State employs individuals with 
regional responsibilities, and they provide technical 
assistance to several counties or municipalities. This is the 
kind of innovative program that will help bolster our 
cybersecurity defenses and improve how States conduct 
elections. It's also a model that the EAC would like to help 
amplify nationwide should our funding support such an effort.
    Unfortunately, not all the news is good. As you know, the 
threat of foreign adversaries remains real, and ultimately our 
State and local election officials do not have the resources to 
thwart a truly determined and sophisticated nation-state actor. 
That is why we must take action to build resilience here at 
home and implement policies that deter adversaries abroad, such 
as a real sanctions regime. Additional funding is crucial to 
allow States to continue to make necessary improvements that 
increase the strength and resiliency of our election systems.
    When we talk about election Administration, we are talking 
about the infrastructure of our democracy. To make meaningful 
and lasting change requires a consistent investment over time. 
It cannot just be about 2020 or any one election, but about all 
our elections going forward. During a Senate Rules Committee 
hearing in May, I shared a recent discovery that the EAC's 
operating budget of $7.95 million is less than the amount 
Kansas City spends on potholes. It's startling to think that 
one city with a population of around 500,000 people invests 
more to protect its residents' car titles and alignment than 
our country invests in the only Federal agency dedicated 
completely to improving election Administration and helping 
more than 200 million registered voters cast their ballot.
    I thank you for your time, and I'm happy to answer any 
questions you may have.
    [The statement of Mr. Hovland follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Chairman Nadler. [Presiding.] I thank the witnesses. I ask 
unanimous consent that my opening statement be entered into the 
record.
    Without objection.
    [The information follows:]

      

                   MR. NADLER FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Nadler. We will now proceed under the 5-minute 
Rule with questions. I will begin by recognizing myself for 5 
minutes. Let me thank, before I start that, thank Vice Chair of 
the committee, Mary Gay Scanlon, for presiding while I was 
testifying in another committee.
    In 2016, our elections were attacked. Three years later, 
our intelligence community has universally confirmed that 
foreign actors have redoubled their efforts and are preparing 
as we speak to attack our 2020 elections. Yet the President has 
blocked security efforts and cut programs designed to safeguard 
our elections. His chief of staff, for example, apparently 
issued instructions not to mention election security ``in front 
of the President.'' The President also has disbanded the 
Commission on Election Integrity, eliminated the cybersecurity 
coordinator position on the National Security Council, and 
dramatically downsized the two teams fighting foreign election 
interference. The President's 2020 budget proposed cutting 
funding for the Cybersecurity and Infrastructure Security 
Agency, our main election security agency, even further.
    The President is handicapping our agencies from securing 
our elections. Most disturbing, the latest threat to our 
elections comes from the President himself. The President asked 
a foreign leader, President Zelensky of Ukraine, to interfere 
in our elections. This isn't the first time. In 2016, President 
Trump, then a candidate, publicly encouraged Russia to 
illegally hack his adversary's emails. This past June, 
President Trump said on national television that if offered 
information on his adversary in 2020 from a foreign government, 
he would take it. Just this month, President Trump publicly 
suggested ``China should start an investigation into the 
Bidens.''
    I want to be clear. I believe it is unacceptable to ask 
foreign adversaries to interfere in any way in America's 
elections. If we ask other governments to interfere our 
elections, if we undermine the public's confidence in the 
integrity of our voting processes, we are doing our 
adversaries' work for them. We cannot continue to undermine our 
own democratic values on the world stage. The President's own 
officials agree. Ambassador Sondland testified, ``Let me State 
clearly, inviting a foreign government to undertake 
investigations for the purpose of influencing an upcoming U.S. 
election would be wrong.''
    Each of you sitting here today are responsible for 
protecting the integrity of, and public confidence in, our 
elections. So, I would like to hear from each of you in turn, 
yes or no, do you think it is appropriate for the President of 
the United States to ask a foreign government to investigate 
its political opponent in the 2020 elections. Mr. Masterson, 
yes or no.
    Mr. Masterson. No.
    Chairman Nadler. Ms. Floris?
    Ms. Floris. No, sir.
    Chairman Nadler. Mr. Hickey?
    Mr. Hickey. I am not going to comment on the President's 
activities, but we are committed to confronting violations of 
the law wherever we found them.
    Chairman Nadler. Do you think it is appropriate for a 
president, never mind this President, to ask for a foreign 
government to investigate opponents in an election?
    Mr. Hickey. I am focused on enforcing the criminal law.
    Chairman Nadler. You won't answer. Mr. Hovland?
    Mr. Hovland. No.
    Chairman Nadler. Thank you. The Mueller report concluded 
that, ``On approximately June 2016, the GRU, a Russian 
intelligence organization, compromised the computer network of 
the Illinois State Board of Elections,'' and ``gained access to 
a database containing information on millions of registered 
Illinois voters.'' The report confirms that the Russian hackers 
successfully breached the databases but failed to alter or 
delete voting records. Last month, I asked our expert witnesses 
about the possible impact on our elections if the Russians had 
been able to alter the database. Ms. Plunkett, former director 
of the National Security Council under Presidents Bush and 
Clinton, testified that altering those databases would have 
been ``devastating,'' including because tens of thousands of 
voters could have been turned away at the polls.
    Our intelligence communities have confirmed that the threat 
of this happening again is very real. The President, however, 
had made it harder for Federal agencies to do their job and 
keep our democratic processes safe. Indeed, the White House has 
intentionally cut your budget and cut your staff going into an 
election our intelligence community has confirmed is under the 
biggest threat that our Nation has seen. The inspector general 
reported that DHS' staff shortages are making it difficult for 
DHS to do its job.
    So, Mr. Masterson, let's say that in 2020 on Election Day, 
a county reports that its voter registration poll books seem 
incorrect, resulting in long lines and many voters being turned 
away, like what we saw in Durham. What is the specific plan for 
how DHS will ensure that it is immediately informed about any 
such issues on Election Day? What is the plan to remedy any 
such breach that occurs, and do you have sufficient staff to 
protect against these types of threats?
    Mr. Masterson. Thank you, Mr. Chairman, for the question. 
That preparation begins long before Election Day with the work 
we are doing now with State and local election officials across 
the country. At its core, our work is to work with the election 
officials to build resilience. That is that ability to detect 
if there is an issue with the voter rolls, and then identify 
what the issues are and recover.
    So that is the purpose of items like our tabletop devote 
exercise, to work with those State and local election officials 
about when or if they identify that information, how they will 
communicate it both with the local election officials, State 
election officials in their jurisdiction, with the Federal 
Government, and what processes they and we have in place to 
respond. For instance, DHS has incident response capabilities 
both remotely and teams that can come and support election 
officials in anticipation of possible or in reporting of 
incidents.
    In addition, we are working with State and local election 
officials on preparations. For instance, having in place 
provisional ballot materials such that if there is an issue 
with the voter rolls on Election Day, they are prepared to 
administer provisional ballots broadly and ensure that every 
voter, while it may be messy, has the ability to cast their 
vote and know that their vote was counted as cast.
    Chairman Nadler. So, are you confident now that you have 
the funding and the ability so that should a county, a large 
county, let's say, in a key State is successfully hacked and 
the voter rolls are messed up, that you will be able to step in 
instantly and give whatever assistance is necessary, so we 
won't have a long post-election dispute over a couple hundred 
thousand votes not being properly cast?
    Mr. Masterson. I am confident that the level of funding, 
starting with the $33 million we got last year and the proposed 
funding now, allows us to maintain that level of support to 
ensure that election officials have what they need as they head 
into Election Day, yes.
    Chairman Nadler. Thank you very much. My time has expired. 
The gentleman from Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. We have wasted so much 
time this year on a bogus Russian collusion allegation and on 
various messaging bills which are ultimately not going to go 
anywhere, that it is nice that we actually have the Departments 
of Justice, Homeland Security, the FBI, and the U.S. Election 
Assistance Commission before us to talk about a real issue, and 
that is protecting America's elections from foreign influence.
    There are various pieces of legislation that would, I 
believe, help better protect our elections in the future. For 
example, I am an original co-sponsor of H.R. 3442, which would 
deny entry into the United States any individual who interferes 
with our election. Let's hope that maybe this Committee could 
work together in a bipartisan fashion to make sure our 
elections are once again the gold standard, what the rest of 
the world looks to as how you do it, how you get it right. We 
generally have been that gold standard over the years, so we 
need to get back to that.
    Ms. Floris, let me begin with you, if I could. I will start 
by asking you a question that relates to H.R. 3442, the 
legislation that I just mentioned. What is the standard for 
determining what kind of content posted by a foreign agent or 
agents that rises to the level of being a foreign influence 
operation? Is there a certain type of verbiage or rhetoric that 
the FBI looks for, and do you think engaging in such behavior 
online should bar an individual from entering the United 
States?
    Mr. Hickey. Thank you, sir, for your question. So, I will 
start by saying that the FBI does not content or police 
information on the internet. That is certainly not our job and 
not something that we plan to get into. What we look at is 
actually known nefarious actors, so if we have identified a 
foreign actor who is participating in influence operations, and 
as part of those operations seeks to propagate this information 
or post derogatory content, that is of investigative interest 
to us. We absolutely do not start with content and work our way 
back.
    Mr. Chabot. Thank you. Mr. Hickey, would you agree with 
that, and is there anything you would like to elaborate on?
    Mr. Hickey. No, I think the DAD got it exactly right. We 
focus on known actors and tip the providers in a way that helps 
them make determinations under their terms of service.
    Mr. Chabot. Is there anything that the Department of 
Justice is doing to work with social media companies in advance 
of the 2020 elections?
    Mr. Hickey. Principally through the FITF, but we also 
support the FITF's efforts and sometimes accompany them in 
working with the providers.
    Mr. Chabot. Okay. Are there any other countries other than 
Russia that you have seen or that you believe is showing some 
interest in disrupting our elections in 2020 or in the future 
in general?
    Mr. Hickey. We have spoken and the IC has spoken about 
foreign influence activities, malign foreign influence 
activities from China, and we are certainly concerned about 
others. Of course, in our FARA enforcement, obviously we have 
seen actions by agents of other nations, like Turkey and 
Ukraine.
    Mr. Chabot. This is to any of the witnesses. What was your 
agency's role in securing the 2018 congressional midterm 
elections, and what specific efforts were made in that effort? 
Mr. Masterson?
    Mr. Masterson. Yeah, thank you, sir. Our role, as it is now 
in helping to secure the 2018 midterm elections, was to provide 
information sharing, support, and services to State and local 
officials to help them manage risk to their systems. So, we 
started by building those trusted relationships with those 
State election officials that are, I think, appropriately 
skeptical of a Federal role in elections and by providing 
value, right? That the information we provide, the services, 
help them identify and manage the risk to their systems.
    So, we are doubling down on those efforts for 2020 to reach 
those local election officials across the State, like Cheryl in 
Jackson County, Ohio. How do we get to her and get her the 
information sharing she needs to manage risk to her systems?
    Mr. Chabot. Thank you very much, and I am getting close to 
being out of time. Mr. Floris, let me ask you this. Would you 
agree that the FBI's reputation was significantly damaged by 
political bias against the President, President Trump 
specifically, that was exhibited by a number of top-level 
officials in your organization?
    Ms. Floris. Sir, I am not going to comment on any damage or 
lack of damage to our reputation. Thank you.
    Mr. Chabot. Okay. Well, it really was. People like Peter 
Strzok and others, I think, very much damaged it. It is unfair 
to the rest of the organization because the FBI is truly a 
great organization, one of the best in this Nation. Thank you 
very much. I yield back.
    Chairman Nadler. The gentleman yields back. Let me just say 
for the record that I think Peter Strzok acted in the highest 
traditions of government workers. The gentlelady from 
California.
    Ms. Lofgren. Thank you, Mr. Chairman, and thank you to all 
the witnesses for not only your testimony, but your service to 
our country. It is recognized and appreciated. Just a note to 
the gentleman from Ohio. The bill that he has co-sponsored, and 
there are some variations on that theme about denying visas to 
those who are interfering in our elections, will be made part 
of the SHIELD Act through a manager's amendment. I just wanted 
him to know that, that we are taking that good idea and moving 
it forward.
    You know, the Mueller report describes evidence that the 
then Trump Campaign chairman, Paul Manafort, shared with a 
Russian operative, Kilimnik, the campaigns, and this is a quote 
from the report, ``strategy for winning Democratic votes in 
Midwestern States,'' and ``internal polling data of the 
campaign,'' which is I have always thought, what was going on 
there. Why the internal polling data to this Russian agent? Ms. 
Floris, I wouldn't ask you to comment on that particular item 
because that is a fact. Generically, why would a campaign's 
internal polling data and strategy for battleground States be 
helpful to someone who was seeking to impact our elections? 
Specifically, what could a hostile actor do to such information 
with any campaign if they got internal polling data?
    Ms. Floris. Thank you, ma'am, for that question. I will 
answer from a strategic perspective. When you look at countries 
like China, like Russia, they essentially take a whole of 
government approach when it comes to their foreign influence 
operations. They are not only looking at our Federal elected 
officials, but they are also looking at State and local elected 
officials as well because any one of those individuals can 
potentially influence policy moving forward.
    So, because they take this whole of government approach, 
any bit of information could help inform their decisions and 
how they move forward with their operations. So though on the 
surface it might not seem as a great benefit to them, rest 
assured that particularly China and Russia will use every tool 
in their toolbox to get information that they deem potentially 
as valuable.
    Ms. Lofgren. Now, you all are the FBI and government 
investigators. Each one of us, on both sides of the aisle, have 
been candidates, and one of the things we know is that you 
could do ads. If you were interested in polling data, you 
couldn't do a poll without being caught. So, the only way you 
would get his information was from a campaign that had actually 
legitimately done a poll.
    A report this month was released by the Senate Intelligence 
Committee on Russia interference in our elections, and it said 
that the Russian government used Facebook's geographic 
targeting features to channel advertisements to intended 
audiences in specific locations. And about 25 percent of the 
ads purchased by IRA were targeted down to the State, city, or, 
in some instances, university level. For example, in Michigan 
and Wisconsin, they were targeted with advertisements 
overwhelmingly focused on the subject of police brutality to 
move populations in one direction or another.
    Mr. Hickey, if a campaign made its internal information, 
such as polling data, readily available to a foreign government 
that then used it to target voters via social media, would that 
be something the Department of Justice would investigate, or is 
there no law on that that would allow or stimulate an 
investigation?
    Mr. Hickey. So, there are two basic categories of laws. One 
I know. One I am less an expert in. I don't know whether 
campaign finance, public corruption, fraud, or other statutes 
would apply. With respect to the national security statutes I 
am familiar with, they tend to focus on whether an American is 
acting as an agent of a foreign government, meaning under the 
direction or control of the foreign government. So, in the 
example you have posited, you would have to analyze whether the 
American is the reverse of that, whether they are directing and 
controlling or procuring something from the foreign government, 
in which they wouldn't be an agent of the foreign government.
    Ms. Lofgren. Well, I would just note that we will have an 
opportunity to, in the near future, to make this much clearer 
by approving the SHIELD Act, which would prohibit the sharing 
of internal data, campaign data, by an American campaign with 
agents of a foreign power so that you would have a very clear 
basis to proceed on that. I hope that we can get strong 
bipartisan support for that measure. With that, Mr. Chairman, 
my time has expired, and I yield back.
    Chairman Nadler. The gentlelady yields back. The gentleman 
from Arizona.
    Mr. Biggs. Thank you, Mr. Chairman. I would love to spend 
this time talking about election security. I think that is 
really critical. I think that I have prepared to ask those 
questions, but we come to these hearings, and it is impeachment 
all the time. That is what this is. We were told by Chairman 
about the impeachment inquiry, but here we sit. Well, if you 
want to ask the questions or want to mischaracterize the 
telephone conversations, you probably ought to go try to get 
down into the closed hearing downstairs. Well, you know what? 
You can't get in because I have tried to get in.
    So, when I hear Chairman open up with his opening statement 
about the Ukrainian phone call and suggest that the President 
asked President Zelensky to interfere in the 2020 election, I 
have read the transcript. It is out there. It for everybody to 
read. You can characterize it any way you want to, but I would 
suggest that that isn't the proper characterization. The 
telephone call itself mentioned CrowdStrike, Ukrainian 
interference in the 2016 election, and that was what President 
Trump was asking that President Zelensky look into. Now, when 
he mentions Biden, here is my question. We have got FBI here. 
We got DOJ there. So here is my question for you. Do you think 
that a person who has admitted criminal conduct should have 
immunity from investigation because that individual is a 
potential political opponent in an upcoming election? What do 
you think?
    Mr. Hickey. So, I think nations should follow facts and law 
where they lead in the course of criminal investigations 
honestly--
    Mr. Biggs. Regardless of whether they are a potential 
political candidate or not.
    Mr. Hickey. Regardless of status or without fear or favor.
    Mr. Biggs. Right. The other thing that we are subjected to 
in this Committee a lot is if I ask questions and Chairman 
doesn't like the responses or the statement I make, when I am 
done, he will offer his comment on it. That is why he said 
Peter Strzok represented the highest ideals or highest 
standards of the Agency. That is really unusual because 
normally if he wants to make that comment, he is going to ask 
somebody else to yield some time to him so he can rebut the 
comment that he disagreed with. That happens perpetually here 
because it is convenient. Got a mike. I am Chairman. I can do 
whatever I want. I would suggest to you that is merely an 
opinion with regard to Mr. Strzok because I think Mr. Strzok 
does exactly the opposite. His misconduct actually reflected 
poorly and has caused much division and heartache in this 
country. That is just the way it is.
    So, we have focused a lot on Russian interference in the 
2016 election, the malign foreign influence of the Russians. 
Are there other nation-states that engaged in 2016 and might 
engage in 2020 elections?
    Ms. Floris. So, sir, I will hit on the one big country that 
we are focused on as we roll into 2020 outside of Russia, and 
that is certainly China. Make no mistake, China is aggressively 
pursuing foreign influence operations. They do a bit of a 
different tactic than the Russians. They certainly prefer a 
face-to-face interaction. They use economic levers. Their end 
goal is really to cede us as a global economy superpower. So, 
as we roll into 2020, though Russia was certainly a threat in 
2016, 2018, and will continue to be so in 2020, we are also 
aggressively looking at China as well.
    Mr. Biggs. Did you see other states in 2016 besides China 
and Russia involved?
    Ms. Floris. I would refer back to the ICA, sir, that was 
released after 2016, I believe in 2017.
    Mr. Biggs. In fact, in the 2018 midterm elections, DOJ and 
DHS found that there was no evidence to date that any 
identified activities of a foreign government or foreign agent 
had a material impact on the integrity or security of election 
infrastructure or political campaign infrastructure used in the 
2018 midterm elections. That goes to what you said, Ms. Floris, 
when you said there was no hard evidence that any number of 
votes were actually changed through the system. Mr. Hovland, I 
have seen your biography. You previously worked on voter 
registration list maintenance in Missouri. Can you tell me a 
little bit about the importance of States maintaining lists 
that are up to date?
    Mr. Hovland. Absolutely. Thank you for the question, sir. 
So, the National Voter Registration Act, or NVRA, sets out a 
process for voter list maintenance, and that ensures that 
individuals are able to get registered, but when someone is no 
longer in a jurisdiction, it gives them the proper way to clean 
those rolls. Frankly, having clean rolls allows jurisdictions 
to save money and ensures that the right people are where they 
need to be.
    Mr. Biggs. My time has expired.
    Chairman Nadler. The gentleman yields back. The gentlelady 
from Texas is recognized.
    Ms. Jackson Lee. I thank Chairman and Ranking Member for 
this hearing, and I thank all the witnesses for your service to 
the Nation. Let me ask the question for each of you, please. 
How confident are you that we will have an impeccable, safe, 
and secure election in 2020 from the work that you have now 
done on the Federal level? Mr. Masterson? Without intrusion 
from foreign operatives. Mr. Masterson?
    Mr. Masterson. Thank you for the question, ma'am. Anyone 
that has run an election could tell you there is no such thing 
as an impeccable election, right? The goal is absolutely to 
build resilience, and I am confident that the 2018 election was 
more secure and resilient than 2016, and 2020 will certainly be 
more secure and resilient thanks to the hard work of the State 
and local election officials, the private sector that is 
working with them, and our work with them.
    Ms. Jackson Lee. The rest of you, yes or no, and one 
sentence. Ms. Floris? Thank you.
    Ms. Floris. I am confident that we are throwing every tool 
we have against the threat to our election security.
    Mr. Hickey. Agree.
    Mr. Hovland. I would echo Mr. Masterson's sentiment and say 
that traveling around the country, it is amazing to see the 
hard work that State and local election officials are doing to 
address this issue.
    Ms. Jackson Lee. None of you have said, even though I 
appreciate Mr. Masterson's comment about we cannot have an 
impeccable election. I think the American people are owed an 
impeccable election, to be very honest with you. So, I will 
follow up my line of questioning about how secure are we and 
proceed to raise the question with Mr. Hickey. In light of the 
fact that there seems to be some loophole in how secure it is 
going to be, what is the approach of the DOJ in prosecuting and 
being proactive for what intrusions may occur in the 2020 
election?
    Mr. Hickey. We will be very proactive, ma'am. I think one 
of the most important lessons coming out of 2016 and to the 
present is how we handle information that a State or a campaign 
may be targeted and getting what we will call victim 
notifications to the right people and following up. I think we 
are in a better position now than we were in 2016, both as a 
matter of policy and our sensitivity to the importance of that.
    Ms. Jackson Lee. Do you have a sufficient number of 
lawyers, DOJ prosecutors, and resources to be ready for the 
massiveness of the 2020 presidential election and other Federal 
elections?
    Mr. Hickey. I think we are well positioned. I also think 
the budget for 2020 includes additional resources for the 
sections I supervise that will improve our standing in that 
regard.
    Ms. Jackson Lee. I want to congratulate Congresswoman 
Lofgren for the work of her Committee on the question of 
shielding us from this kind of intrusion and congratulate her 
for including my legislation that Mr. Johnson and I introduced 
in April this year, H.R. 2353. The language in particular says 
if a candidate or any individual affiliated with a campaign of 
a candidate knowingly receives an offer for assistance with the 
campaign from a source the candidate or individual knows is a 
foreign power or an agent of a foreign power, the candidate or 
individual shall refuse the offer for such assistance and 
notify the Federal Bureau of Investigation of the offer not 
later than 72 hours after receiving the offer. Ms. Floris, if 
this legislation passed, but really its intent, should be acted 
upon by the FBI. What infrastructure do you have to ensure a 
response to any reporting of this kind of activity?
    Ms. Floris. Thank you, ma'am, for the question. The FBI 
becomes interested in foreign influence activity, again, when 
it hits those four categories I spoke about in the beginning: 
The subversive nature of it, the undeclared nature of it, the 
coercive and criminal nature of it. The FBI will respond as we 
do in any investigation with the full might of not only the 
Foreign Influence Task Force, but the, you know, hundreds of 
agents and analysts out in all our 56 field offices who are 
working the foreign influence threat day in and day out. We 
will use all the tools we have in our toolbox as we do--
    Ms. Jackson Lee. Do you have on enough staff? Have you 
ramped up your staff for the 2020 election? Do you have enough 
funding for staff to deal with the potential of this reporting?
    Ms. Floris. Ma'am, we can always use more resources, but 
rest assured we are putting everything we can against this 
threat and facing it with absolute determination.
    Ms. Jackson Lee. Mr. Masterson, I sit on the Homeland 
Security Committee, so we appreciate the deep dive that you all 
have taken. So, give me an understanding of how you have as a 
priority efficiently sharing actionable intelligence in 
identifying threats. How have you ramped up that very important 
part of your work?
    Mr. Masterson. Yeah, absolutely. I would highlight two 
areas, ma'am. The first is the buildout of the election 
Infrastructure Information Sharing and Analysis Center. This is 
the hub of information sharing that we use to reach State and 
local officials. We have all 50 States and the territories as 
Members of the IISAC as well as over 2,100 local election 
officials. So, this ensures that actionable, timely information 
is reaching the field so that they can take the steps they need 
to manage risk to their systems.
    The second is our continued push with the intelligence 
community to provide clearances and classified briefings, 
whether through secure video teleconferences or in person, as 
well as working with private sector threat intelligence 
authorities. So, we have worked with private sector companies 
to provide briefings to State and local election officials 
about what they are seeing out internationally to help them 
manage risk to the system. So, we are exploring all avenues 
trying to find efficient ways to get this information to the 
election officials.
    Ms. Jackson Lee. Thank you. I yield back.
    Chairman Nadler. The gentlelady yields back. The gentlelady 
from Arizona.
    Mrs. Lesko. Thank you, Mr. Chairman. My first question is 
for Ms. Floris. Does anyone at the Foreign Influence Task Force 
draft FISA affidavits or applications?
    Ms. Floris. No, ma'am.
    Mrs. Lesko. Looking back at the FBI's activities 
investigating the 2016 election, it has been reported that FBI 
never obtained the original servers from the Democratic 
National Committee that had allegedly been hacked by Russia, 
instead relying on imaged copies. First, is that correct?
    Ms. Floris. Ma'am, I can't speak to that. I am sorry.
    Mrs. Lesko. Can someone else on the panel speak to that?
    Mr. Hickey. Yes, ma'am. We got the information that we 
required for our investigation, and it is pretty common for us 
to work with a security vendor in connection with an 
investigation of a computer intrusion.
    Mrs. Lesko. So, can either one of you answer, does the 
DNC's cybersecurity consultant, CrowdStrike, still have 
possession of the Clinton servers?
    Mr. Hickey. I don't know what they have possession of now.
    Mrs. Lesko. Does anyone on the panel know?
    [No response.]
    Mrs. Lesko. All right. My next question is for Mr. Hickey, 
and I know that Mr. Chabot asked you what other countries have 
shown an interest in disrupting the 2020 election, but what 
other countries had shown an interest or tried to interfere in 
the 2016 election?
    Mr. Hickey. Based on what I have read, both from what the 
IC has put out and also investigations by Congress, what I have 
seen only refers to Russia that I am aware of.
    Mrs. Lesko. Then earlier, there was a question by Chairman 
Nadler, and I want to clarify what you think, if you think it 
is appropriate for a President of the United States to ask a 
foreign government to investigate previous election 
interference, and I guess I would like all of you to answer 
that question.
    Mr. Masterson. Can you repeat the question, ma'am? I am 
sorry.
    Mrs. Lesko. Do you think it is appropriate for the 
President to ask a foreign government to investigate previous 
election interference if there was election interference going 
on? To ask if there is anything he thinks was unlawful going on 
in other countries, to ask the other country to help to 
determine if there was something unlawful happening?
    Mr. Masterson. I think it is appropriate to understand any 
attempts at interference in our elections so that we can 
continue to work to build resilience in the process.
    Ms. Floris. The FBI is interested in any criminal violation 
as relates to foreign influence, so long as there is that 
foreign angle to the foreign influence operations.
    Mrs. Lesko. Thank you.
    Mr. Hickey. I will give the same answer I gave before, 
which is I don't opine on appropriateness, per se, but I am 
focused on enforcing the criminal law.
    Mr. Hovland. I think it is important to understand what 
occurred with our election so that election officials have the 
information they need to prepare for future elections.
    Mrs. Lesko. Thank you, and I yield back my time.
    Chairman Nadler. The gentlelady yields back. The gentleman 
from Tenessee?
    Mr. Cohen. Thank you, Mr. Chair.
    This is a question to anybody on the panel that has an 
answer. In 2016, I understand there were reports that I think 
were sound that Russia tried to interfere with a lot of State 
election rolls, maybe all of them. Anybody here aware of those 
reports?
    Mr. Masterson, you seem to be first to go to bat, sir.
    Mr. Masterson. Probably foolishly, sir. Thank you.
    Yes. The DHS, in coordination with the FBI, released an 
information product out to State and local election officials 
that stated that based on the information we have as far as the 
activity in 2016, that the pattern of behavior is likely that 
the Russian government--or Russian actors conducted at least 
research on election entities across all 50 States. That 
doesn't necessarily mean that they attempted to access the 
systems. It could be as simple as a Google search to understand 
who runs elections in that State.
    Based on the information that we and the intelligence 
community have, that it is assumed that they were at least 
researching all 50 States' election systems.
    Mr. Cohen. Why would they have done that?
    Mr. Masterson. Presumably--I don't want to speculate, but 
presumably, just to understand how elections are run across the 
United States.
    Mr. Cohen. Spring training?
    Mr. Masterson. To gather information.
    Mr. Cohen. Kind of spring training?
    Mr. Masterson. Yes.
    Mr. Cohen. Yes, something like that. Anybody else have 
knowledge of that, have any other thoughts about it? No?
    [No response.]
    Mr. Cohen. How about Florida? Was there not reports that 
two different jurisdictions' voting systems were contacted by 
the Russians? Mr. Hickey?
    Mr. Hickey. So, I think we have briefed Florida officials 
on activity targeting systems and leading successful intrusions 
in two counties. I think it is important to be clear we have 
also reached the conclusion that there was no material impact 
on registration or vote counting, based on the evidence that we 
have seen. So, I think it is clear--important to be clear about 
that.
    Mr. Cohen. Based on what happened in 2016 and based on what 
Mr. Mueller told us that the Russians at the time he testified 
were looking into effect being involved in our 2020 elections, 
are you confident that giving our funds directly to States, 
that they will use them to work against Russian cyber 
interference and protect those State systems?
    Mr. Hovland. I am happy to talk about that. So, at the EAC, 
we distributed the $380 million from fiscal year 2018, and as I 
mentioned in my opening statement, it appears that the vast 
majority of that will be spent. We have seen over 90 percent of 
that going toward improving security, again whether that is 
replacing outdated equipment, hardening systems, implementing 
audits. The States have done a number of things, but because of 
the variations in how elections are administered State to 
State, there have been different priorities.
    Mr. Cohen. Mr. Masterson?
    Mr. Masterson. Sir, just briefly on that, we worked with 
our Government Coordinating Council, which has 24 State and 
local election officials as a member, to identify priorities 
for that funding. What we have seen is States have taken that 
information, which is databased on our work with the States on 
where risks lie and used it to apply. I will give you a very 
specific example.
    Prior to the 2018 election, the State of Wisconsin deployed 
two-factor authentication out to all its local election 
officials for the statewide voter registration database, which 
may seem unremark-able until you realize they have 1,800 local 
election jurisdictions in the State of Wisconsin and almost 
3,200 users of the statewide voter registration database. So 
that is a very focused, targeted step, base level, that they 
have taken and used the money.
    Mr. Cohen. Let me ask you this, Mr. Masterson. Director 
Krebs has emphasized the importance of protecting the campaigns 
based on what happened in 2016 with interference with the DNC, 
the Clinton campaign stolen emails, et cetera. He said shame on 
us if we are not ready this time around.
    Have you consulted with the President, or anyone involved 
in his re-election campaign?
    Mr. Masterson. Sir, we have contacted not just the Trump 
campaign, but campaigns across the Presidential election--
presidential campaigns to make sure that they are aware of our 
services and information-sharing responsibility.
    Mr. Cohen. So, Mr. Mulvaney did not contact you, as he did 
your superior, and say this is a very sensitive subject for the 
President, don't mention it, or dance around it, or whatever?
    Mr. Masterson. No, sir.
    Mr. Cohen. Okay. Ollie, Ollie, in free. That is great.
    I want to thank the FBI and the Justice Department as well. 
You all are stalwarts in the American system of government and 
the Rule of law, and I would have to disagree with some 
previous statements made that some individuals within your 
organizations were responsible for hurting your organizations. 
I think that an individual who is the President of the United 
States was the one that caused it by questioning those people's 
actions and making statements that were adverse to both the FBI 
and the Justice Department, which we should uphold.
    I yield back the balance of my time.
    Chairman Nadler. The gentleman yields back. The gentleman 
from Florida?
    Mr. Gaetz. Thank you, Mr. Chairman.
    I wish this were truly were a sincere hearing on election 
security. If it were, we might be marking up some of the 
bipartisan legislation that Members of the Committee have 
worked on, including House Resolution 3529 by Congresswoman 
Murphy, Mr. Deutch, Ms. Mucarsel-Powell, myself, to have 
greater connectivity prior to any intrusion, or we might be 
marking up the legislation by Mr. Ratcliffe, Mr. Himes, joined 
by Mr. Collins and Mr. Khanna, 3238, that would create greater 
consequence for those who engage in election interference. That 
is not what this is about.
    This is about smearing the President of the United States 
and validating the corrupt people who have been involved in 
delegitimizing his historic election. We know that because just 
moments ago, Chairman said that Peter Strzok was acting in the 
highest traditions of Government service.
    Now, Ms. Floris, I believe you currently hold the job that 
Mr. Strzok once held. Is engaging in an extramarital affair in 
the FBI with a coworker acting in the highest traditions of 
Government service?
    Ms. Floris. I am not going to comment on that, sir.
    Mr. Gaetz. Well, are there any regulations in the FBI 
against it that you are aware of?
    Ms. Floris. I am not going to comment on that, sir.
    Mr. Gaetz. Well, you hold Mr. Strzok's job. Are you saying 
that you don't know whether or not it is against FBI policy to 
have an extramarital affair with a coworker?
    Ms. Floris. Sir, I hold a slightly different job than Mr. 
Strzok held. I am the DAD over the Intelligence Branch. He was 
over our Operational Branch, not that we are held to a 
different standard. I am just not going to comment on whether 
or not Peter Strzok's behavior was out of conduct.
    Mr. Gaetz. Well, is it in the highest traditions of 
Government service at the FBI to engage in affairs with 
coworkers? You should know that if you work there.
    Ms. Floris. Sir, I am not going to comment on that.
    Mr. Gaetz. Wow. Well, maybe I will ask you another one. The 
Inspector General said in his report, ``We do not have 
confidence that Strzok's decision to prioritize the Russian 
investigation over following up on the midyear-related 
investigation.'' So, if the Inspector General didn't have 
confidence in the way that someone prioritized something, would 
that be acting in the highest traditions of Government service?
    Ms. Floris. Sir, I am not going to comment on that.
    Mr. Gaetz. The Inspector General further said, ``The OIG 
found it is not only indicative of a biased State of mind but, 
even more suspiciously, implies a willingness to take action to 
impact a presidential candidate's electoral process. This is 
antithetical to the core values of the FBI and the Department 
of Justice.''
    If someone, anyone, is engaging in behavior that is 
antithetical to the core values of the FBI and Department of 
Justice, is that person acting in the highest traditions of 
Government service?
    Ms. Floris. Sir, we have an entire Inspection Division. We 
have the OIG. There are several measures in place that take 
into account those questions. I am not going to answer those 
questions from the position I am in.
    Mr. Gaetz. It is just really striking that someone in the 
senior leadership at the FBI, like an unwillingness to be 
critical of conduct that was so detrimental to our country. And 
as people all over America are looking at the corruption that 
negatively impacted our President and the institution of the 
presidency, it doesn't really inspire confidence that current 
officials from the FBI say, hey, you know what? It is a bad 
idea to be having affairs with your colleagues and to be 
undermining the trust that people have and to be prioritizing 
investigations over politics. Nonetheless, here we sit.
    In fact, here we do sit. It was more than a month ago, Mr. 
Chairman, that you announced an impeachment inquiry in this 
committee. I believed you that our Committee would be engaged 
in that process. As we sit here today, three other committees 
are in the basement of the Capitol conducting secret 
interviews, engaging in selective leaks.
    We have got Chairman Schiff then coming out and having his 
theatrical reperformances of transcripts that didn't really 
occur, and you have got lies about contacts with 
whistleblowers.
    Now regardless of how people feel about the President or 
this impeachment, one would at least think that if Chairman of 
the Judiciary Committee announces the launch of an impeachment 
investigation, that Members of the Judiciary Committee might be 
willing to--or able to participate in that investigation. When 
I have gone to participate, Mr. Biggs has gone to participate, 
and others have gone, we have been locked out.
    So, it is my sincere hope, and I asked this the last time 
we gathered, that you would take up the cause not just of 
someone's partisan ambition to impeach the President, but that 
you would take up the cause of our Committee and advocate for 
our ability to participate. Because one can only suspect that 
the reason that the House Judiciary Committee has been dealt 
out of the hand on impeachment is because Speaker Pelosi didn't 
like the outcomes that were going on in this Committee when the 
current chairman was running it.
    I mean, it wasn't a surprise to the country when you 
brought in Mr. Lewandowski. House Democrats looked like a dog 
that caught a car and didn't know what to do with it. When 
House Democrats brought in Robert Mueller, there were promises 
that this was going to sway the public, this was going to 
create a flood of support for impeachment. That was obviously 
something that didn't hold to bear.
    So please stand up for our Committee and let us stop with 
this busywork. If we want to markup bills, let us markup real 
bills.
    I yield back.
    Chairman Nadler. The gentleman yields back. The gentlelady 
from Washington?
    Ms. Jayapal. Thank you, Mr. Chairman.
    I thank our witnesses for being here today. I would hardly 
call this ``busywork'' to protect our elections. So, I wish our 
colleagues on the other side would be as concerned with 
election security.
    Back in July, the Senate Select Committee on Intelligence 
released its bipartisan report on Russian interference in our 
2016 elections. Senate Intel found that ``Russian government-
affiliated cyber actors conducted an unprecedented level of 
activity against State election infrastructure in the run-up to 
the 2016 U.S. elections.''
    They called for sweeping action to protect our 2020 
elections. With Election Day just 378 days away, it is crucial 
that we move quickly.
    So, my questions. All of you are responsible for various 
aspects of protecting our elections, and you are no doubt aware 
that a significant concern of securing our elections is that 
foreign actors will attack election reporting or the results of 
elections. Take the following hypothetical.
    Florida reports that candidate X won after counting the 
votes. The next morning, Florida election officials report that 
the results were tampered with, and, in fact, candidate Y won.
    What is being done at the Federal level to, first, prevent 
attacks on our election results, and second, if such an attack 
occurs, to ensure public confidence in the reporting of our 
elections?
    Mr. Masterson, let us start with you and then move to 
Floris, Hickey, and Hovland, please.
    Mr. Masterson. Yes, thank you, ma'am.
    Certainly, election night reporting systems, which are the 
ones you are referencing, are an area that we have worked with 
State and local election officials to secure, to understand 
risk to. The first and most important thing to understand that 
all the folks on the Committee here understand is that election 
night results are, in fact, unofficial results, that there is a 
canvas process that goes on after Election Day. So, ensuring 
that voters have that information, understand the unofficial 
nature of results, and that there is an entire reconciliation 
process that election officials undergo following election 
night to ensure the correctness.
    The second is a top priority for us, and that is working 
with election officials to have auditability of the results and 
to ensure efficient and effective auditing of those results. 
That is absolutely critical to ensure not just the loser that 
they won or lost, but also to reassure the public that their 
vote was counted as cast.
    So that is two areas of high priority for us working with 
State and local election officials to empower them to talk to 
their voters about the steps they are taking both to protect 
those systems, but to really offer reassurance and transparency 
on the back end. I know election officials take that very 
seriously.
    Ms. Jayapal. Does anybody want to add anything?
    Mr. Hickey. I would just add that in the circumstance where 
we know or have indications that a State is being targeted, it 
is really important that we get to State officials at the right 
level and with a sense of urgency so they can do whatever they 
can to mitigate on their systems.
    Ms. Jayapal. Mr. Hovland?
    Mr. Hovland. I would echo what Mr. Masterson said and add 
that at the Election Assistance Commission, part of the work 
that we have done is host IT trainings for election officials, 
which is relevant to this topic, work with them on improving 
audit processes, and certainly think that the issue you raise 
is one of real concern.
    There are a number of responsibilities that election 
officials have, and I believe that the Election Assistance 
Commission should be more empowered to work on those, but the 
reality, as I mentioned in my opening statement, is that we are 
a $7.95 million agency. We have one lawyer. We have one 
financial person.
    Since its inception, the Election Assistance Commission has 
been kicked around like a political football, and we have never 
been empowered or funded in a way to actually help election 
officials in the way we can. I think that right now in this 
time, we see the need for the Federal clearinghouse that the 
EAC was created to be, and I would just ask you all to help 
make that possible.
    Thank you.
    Ms. Jayapal. Thank you.
    Mr. Masterson, as a senior cybersecurity adviser, how have 
you engaged with local, State, and national media outlets to 
ensure that unofficial vote reporting is protected from 
malicious interference? What media networks specifically have 
you met with, and have any refused to meet with you? What new 
measures are you taking in 2020 that weren't applied in 2016 
and 2018?
    Mr. Masterson. Yes, thank you, ma'am, for the question.
    The first is that the Associated Press, the team that 
handles the election night results for the AP on election 
night, is a member of our Sector Coordinating Council, which is 
the private sector council that we work with on providing 
support and services, information sharing. So, AP has been an 
active participant in that coordinating council to understand 
threat and risk, steps that they could take to secure their 
results reporting, and I know is taking that very seriously.
    Secondly is we held a tabletop exercise with Members in the 
national media prior to the 2018 election to talk about what 
are scenarios that could play out, how is information being 
exchanged not just with State and local officials, but social 
media companies, the political parties, and others to ensure 
that media have access to the information they need before they 
report on results or other items.
    Heading into 2020, we anticipate engaging media outlets 
individually and then having the tabletop exercise again 
heading into the 2020 election to work through those scenarios 
and ensure they have the information they need.
    Ms. Jayapal. Thank you very much. Yield back.
    Chairman Nadler. The gentlelady yields back. The gentleman 
from Virginia?
    Mr. Cline. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here. I, too, am 
concerned about foreign interference in our elections and have 
cosponsored the Ranking Member's bill, H.R. 3442, which would 
amend the Immigration Act to provide the aliens who have 
engaged in improper interference in a U.S. elections are 
inadmissible to and deportable from the U.S., and I also 
cosponsored 3238, Mr. Ratcliffe's bill, which would prohibit 
interference with voting systems in the Computer Fraud and 
Abuse Act.
    I want to go ahead and ask Ms. Floris, in your testimony, 
you say that we do know that our adversaries are actively 
trying to influence public opinion and electoral processes in 
advance of the 2020 election. You have mentioned in your 
testimony influencing public opinion through various social 
media activity. What electoral processes, what efforts to 
interfere with electoral processes are you aware of at this 
time?
    Ms. Floris. So, sir, thank you for the question.
    As we roll into 2020, the one thing I want to highlight is 
that countries like Russia and China, they pose a pervasive and 
persistent threat. It is not just based on the electoral cycle. 
Their foreign influence operations are essentially always 
present.
    When it comes to the electoral process, you could look at 
something as voter suppression. The whole concept of pushing 
out false information, of highlighting places to vote that are 
actually not true, this whole concept of disinformation that we 
have really seen the Russians focus on, that, in and of itself, 
can interfere with the electoral process.
    Mr. Cline. Okay. Nothing to the extent of actively trying 
to hack into or interfere with the electoral system?
    Ms. Floris. To date, sir, we have not seen anything 
specific regarding hacking into the electoral systems of the 
2020 election.
    Mr. Cline. All right. Thank you. I am going to yield the 
remainder of my time to Mr. Gaetz.
    Mr. Gaetz. I thank the gentleman for yielding.
    Mr. Chairman, I have a series of unanimous consent requests 
that set up my question. The first is a request that it be 
entered into the record an email from Nellie Ohr to Bruce Ohr 
on the 30th of May, entitled ``Reported Trove of Documents on 
Ukrainian Party of Regions' Black Cash Box.''
    Chairman Nadler. Without objection.
    [The information follows:]

      

                   MR. GAETZ FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Gaetz. I also seek unanimous consent to enter into the 
record a New York Times article, December 12, 2018, ``Ukrainian 
Court Rules Manafort Disclosure Caused `Meddling' in U.S. 
Election.''
    Chairman Nadler. Without objection.
    [The information follows:]

      

                   MR. GAETZ FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Gaetz. Finally, also from December 12, 2018, from the 
Kiev Post, ``Update: Publication of Manafort Payments Violated 
Law, Interfered in U.S. Election, Kiev Court Rules.''
    Chairman Nadler. Without objection.
    [The information follows:]

      

                   MR. GAETZ FOR THE OFFICIAL RECORD

=======================================================================\

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Gaetz. Thank you, Mr. Chairman.
    So, what is happening is that DNC pays a law firm to hire 
Fusian GPS, which hires Nellie Ohr. Nellie Ohr then sends an 
email to her husband about issues with Manafort and the 
Ukraine. That then works its way into the U.S. election 
dynamic, and a court in Kiev ruled that the activities to 
disclose the Manafort activities in the United States proximate 
to the 2016 election constituted election interference and was 
illegal under Ukrainian law.
    Is there anyone on the panel who has a reason to disagree 
with the conclusion of the Ukrainian court that that 
constituted election meddling?
    [No response.]
    Mr. Gaetz. Okay. So, no one has reacted, any basis to 
disagree with the Ukrainian court, and the record can reflect 
that.
    So, my question to Ms. Floris is what are we doing as a 
government to prevent future election meddling like that which 
Ukraine engaged in, where information was disclosed in the 
United States unlawfully in the foreign jurisdiction and then 
entered into the bloodstream of our politics?
    Ms. Floris. Thank you, sir, for the question.
    So, I will harken back to what I said previously. So, the 
FBI certainly is not in a position to police content on the 
Internet. That being said, if the FBI can identify a foreign 
actor, regardless of country, who is trying to push out 
disinformation with the end goal of sowing discord, disrupting 
our electoral process, and it is done in some sort of a 
subversive or undeclared or criminal manner, that is where it 
becomes an investigative interest to the FBI.
    The trick, sir, is identifying that known foreign actor. 
Again, we can't work back from content. We cannot police 
content on the Internet. So, if we find that foreign actor 
behaving in foreign influence operations and part of that 
operation entails disinformation, the FBI will work with the 
social media providers to provide as much actual intelligence 
as we possibly can.
    Mr. Gaetz. So, in this case, it looks like we must know the 
actor because a court ruled that the disclosure of the 
information was illegal. So, is there anything that the FBI is 
doing now to follow up on the decision by a Ukrainian court 
that there was illegal election meddling in the United States 
that emanated from the Ukraine?
    Ms. Floris. Sir, I can't address anything related to the 
possibility or existence or non-existence of an FBI 
investigation.
    Mr. Gaetz. It would seem, I think that my colleague from 
Washington, Ms. Jayapal, said with so few days between now and 
the upcoming election, it is just--I know you can't comment 
maybe on this setting, but I hope sincerely that this Ukrainian 
election meddling is being identified and being pursued by our 
government.
    I yield back.
    Chairman Nadler. The gentleman yields back. The gentleman 
from Florida, Mr. Deutch?
    Mr. Deutch. Thank you, Mr. Chairman. Thanks for holding 
today's hearing. Thanks to the witnesses for being here.
    We know that Russians interfered in our 2016 election. We 
know that national security experts have warned that they will 
do it again in 2020. The 2020 primaries are fast approaching. 
So, we are running short on time to ensure that every State is 
taking the necessary action to harden our election defenses, 
guard against disinformation, and improve election 
Administration generally.
    Florida was one of fewer than 20 States that still had 
elections with electronic machines without a paper trail to 
verify the ballots in 2016. Thankfully, our State is moving in 
the right direction. Between 2016 and 2018, the number of 
counties who had paperless elections dropped from 24 to 4, with 
efforts to move completely to paper-verified systems underway.
    Now after learning that some of our systems were hacked in 
2016, Floridians expect a strong response to bolster election 
security, and we expect that whatever is done will improve 
coordination with State and counties targeted by foreign 
governments and other bad actors.
    According to the Mueller report, the Russian military 
intelligence agency was able to gain access to the network of 
at least one Florida county government. Subsequently, Members 
of our congressional delegation requested a briefing from law 
enforcement agencies and were informed that the networks of at 
least two Florida counties have been compromised.
    Most recently, a report by the Republican-led Senate 
Intelligence Committee suggests that as many as four Florida 
counties may have been successfully attacked. Apparently, no 
tabulation systems were accessed, only registration rolls. 
Whatever the number of counties impacted, we have got to learn 
the lessons of 2016 and guard against these vulnerabilities 
before next year's elections. Florida clearly has work that it 
needs to do, from hardening election systems to improving 
auditing procedures, but we can't do it alone.
    Mr. Masterson, certain breaches in 2016 were not 
immediately detected. What signs should election officials look 
for? What should they be trained to look for on Election Day to 
ensure that there are no undetected attacks, and how are you 
working with State officials to train them to detect such 
signs?
    Mr. Masterson. Yes, thank you for the question, sir.
    It starts long before Election Day so that you may be 
looking for those signs on Election Day, and I will talk about 
our activity there, but there are indicators that election 
officials are aware of and can be attuned to. For instance, in 
the States that offer early voting, you may begin to see signs 
of provisional ballots or registration roll activity that is 
anomalous. The ability to detect that and investigate the 
registration rolls to see if there is any kind of anomalies 
there is important.
    So, there are early indicators that can be gained through 
something like early voting. In addition, and your home State 
of Florida is a perfect example, the deployment of our Albert 
intrusion detection sensors across all 50 States' election 
infrastructure allows for real-time alerting to not just the 
election official, but to our Elections Information Sharing and 
Analysis Center regarding possible malicious activity targeting 
election infrastructure.
    I would note in the State of Florida, Florida was the first 
State to deploy those Albert sensors across all county 
governments, and so Florida is uniquely positioned for that 
kind of intrusion detection and alerting.
    In addition, having that auditability in place that you 
mentioned, those auditable records. I think in Florida, there 
was less than 100 ballots cast in 2018 on auditable systems, 
and a drive towards complete auditability by 2020 is really 
critically important so that we can detect and recover from 
this.
    Mr. Deutch. Thank you. Thank you very much, Mr. Masterson.
    In our hearing on election security last month, the 
witnesses stressed the importance of treating elections as 
``interconnected systems.'' We heard that any digital device 
that touches election processes must be safeguarded. Device 
security management should be centralized and streamlined.
    So, I would like to hear from each of the witnesses what 
your organization is doing to help centralize and streamline 
the election security process. Mr. Hovland, we will start with 
you.
    Mr. Hovland. Yes. So, essentially, at the Election 
Assistance Commission, we are participating in the Government 
Coordinating Council. We consistently work to put out best 
practices. Again, our capacity beyond our statutory 
requirements is very limited.
    As we have the World Series coming to Washington, I would 
note that if we were a Major League Baseball player, we would 
be the 173rd highest-played player. We would be a middle 
reliever. We have no lack of ambition to take on these 
challenges and help, but we need the resources to do it.
    Mr. Deutch. Appreciate the World Series reference. Mr. 
Hickey?
    Mr. Hickey. Sir, I am going to answer a bit by analogy. We 
have a number of department components that touch election 
security. We have got FBI agents in the field and at 
headquarters. We have got prosecutors in the field. We have got 
public corruption prosecutors. We have got national security 
prosecutors. We have got computer crime prosecutors.
    All of them potentially touch this issue, and so it is on 
us to train them, so they are aware of each other and 
coordinated, and that is what we are doing this week. At the 
end of the week--rather, on the end of the month, the FBI is 
pulling together an all hands meeting with agents from around 
the country to train them, including on how to react and relate 
to State officials when it comes to victim notification.
    Mr. Deutch. Ms. Floris?
    Ms. Floris. Sir, thank you for your question.
    I would just stress again the creation of the Foreign 
Influence Task Force, whose purpose was to do just what you 
asked, sir, to coordinate the efforts across the enterprise as 
it relates to election security. We have got elections crimes 
coordinators across all 56 of our field offices whose primary 
goal is to interact with State and local election officials, 
leading up to the day of the election.
    We have got our cyber task forces across all 56 of our 
field offices, and we are working to increase our CI task 
forces as well. Again, the Foreign Influence Task Force really 
is that hub that brings all that effort together, again leading 
up to, during, and after the election.
    Mr. Deutch. Thanks. Mr. Chairman, can Mr. Masterson just 
quickly answer that question?
    Chairman Nadler. The gentleman may answer the question.
    Mr. Masterson. Yes, thank you for the question, sir.
    Across CISA, the Cybersecurity and Infrastructure Security 
Agency, over a third of our employees in 2018 engaged in 
election security work across the United States. We have field 
representatives, protective security advisers, cybersecurity 
advisers engaging directly with State and local election 
officials. Then my team, the Election Security Initiative, is 
the hub of that information.
    So, as we get reporting, as we get requests for services, 
we are able to quickly and efficiently serve the needs of the 
community in order to make sure they have the information or 
services to help to manage risk to their systems.
    Mr. Deutch. Okay. Thanks for what you all do. Mr. Hovland, 
I hope we have a chance to talk about what additional resources 
would mean in this effort.
    Thank you, Mr. Chairman.
    Chairman Nadler. The gentleman yields back. The gentleman 
from Texas?
    Mr. Gohmert. Thank you, Mr. Chairman, and appreciate the 
witnesses being here today.
    Ms. Floris, so did you replace Peter Strzok as Deputy 
Assistant Director of Counterintelligence Division?
    Ms. Floris. Sir, there are three Deputy Assistant Directors 
in the Counterintelligence Division. My particular role is over 
the Intelligence Branch. Mr. Strzok was not over the 
Intelligence Branch. He was over one of our two operational 
branches within the division.
    Mr. Gohmert. He was the one that was briefed by the intel 
community IG about Hillary Clinton's private server potentially 
being hacked. Do you know why you were not included in that 
briefing?
    Ms. Floris. Yes, sir. I did not enter this position until 
the fall of 2018. During the 2016 timeframe, I was in the 
Counterterrorism Division.
    Mr. Gohmert. Okay. So, you came into your current position 
after Peter Strzok left?
    Ms. Floris. Yes, sir.
    Mr. Gohmert. Well, since the Foreign Influence Task Force 
is a headquarters component, I am concerned that Peter Strzok 
ran two of the biggest cases in FBI history as headquarters 
special cases rather than the traditional way of running cases 
through field offices. Is the Foreign Influence Task Force 
running election cases from headquarters now?
    Ms. Floris. No, sir.
    Mr. Gohmert. Then can you tell us the reason they were 
doing so when Peter Strzok was there?
    Ms. Floris. Sir, I cannot speak to why things were done or 
not done during Peter Strzok's time. I can just speak to 
currently what we are doing in the Foreign Influence Task 
Force, which is essentially program managing the cases across 
our 56 field offices.
    Mr. Gohmert. Well, I would think that since there is such a 
big deal about influence peddling in 2016, even though you came 
in after that, that you would be a little bit concerned about 
the influence peddling when Peter Strzok was there. Are you 
not? Have you not looked into that at all in your current 
position?
    Ms. Floris. Sir, my focus is on the 2020 elections and 
moving forward. The creation of the Foreign Influence Task 
Force happened in the fall of 2017. We are laser focused on the 
elections moving forward.
    Mr. Gohmert. So, you don't think there is anything to be 
learned from looking at what occurred in the 2016 election to 
help you prepare for what is going on and could go on in the 
2020 election? Really, you don't think there is anything to 
learn from history?
    Ms. Floris. Sir, there are always lessons to be learned 
from history. What we have learned in 2016--and I can speak 
strategically, not just what was happening in the FBI--was 
really a lack of coordination on the foreign influence threat 
across the entire U.S. intelligence community. We are now 
better engaged. We collaborate far more on a daily basis. We 
are working with our social media companies. All of this, 
lessons learned from 2016, lessons learned from 2018, and we 
are going to continue to put best practices forward as we move 
into 2020.
    Mr. Gohmert. Well, since you are concerned about 2020, have 
you--were you aware of President Petro Poroshenko dispatching 
Olga Bielkova or any other Ukrainian officials to the U.S. to 
influence our election in 2016?
    Ms. Floris. Sir, I am not familiar with that.
    Mr. Gohmert. Are you aware--do you know who Olga Bielkova 
is?
    Ms. Floris. Sir, again, I am not going to confirm or deny 
the existence or non-existence of FBI investigations or persons 
of interest to the FBI in this setting.
    Mr. Gohmert. That was not my question. I didn't ask you 
that. I asked you, do you know who that is?
    Ms. Floris. Sir, I am not going to answer that question in 
this setting. I am happy to come back in a closed setting and 
go into detail about current investigations that we have 
related to foreign influence.
    Mr. Gohmert. So, you can't even say if you know a person?
    Ms. Floris. No, sir.
    Mr. Gohmert. Do you realize you are supposed to be telling 
us about 2020, and you can't even tell us about whether you 
know anything about people involved in 2016? It really hurts 
the credibility when you can't do that.
    Let me ask you, will the FITF run informants against 
political campaigns?
    Ms. Floris. Sir, much in the same vein that the FITF does 
not run cases, we do not run sources either. We program manage 
the sources that our 56 field offices run as it relates to 
foreign influence.
    Mr. Gohmert. Well, I have a real concern about the 
credibility of what is happening for 2020 if you can't even 
tell us that you even know people from the Ukraine. So, I am 
very disturbed and concerned.
    Chairman Nadler. The gentleman yields back. The gentleman 
from California, Mr. Correa?
    Mr. Correa. Thank you, Mr. Chairman.
    First, I want to say to our panelists today thanks for 
being here today and thank you for service to our country.
    As you know, trust in our election system is the foundation 
of our democracy, and when it comes to cyberattacks, time is of 
the essence. When financial institutions are attacked or our 
military, the response is within seconds. It is usually 
coordinated throughout the industry--not institutions, not 
individually, but the industry, if not worldwide.
    So given the importance of America's democracy, I presume 
that we are now and, Ms. Floris, you were talking about lack of 
coordination, I believe you said, in 2016 among Government 
agencies as being one of the lessons learned. I presume we have 
a system in place now to coordinate that kind of information 
when there is a cyberattack throughout Federal Government? Yes/
no question to all of you.
    Ms. Floris. Sir, thank you for the question, and you are 
absolutely correct. As it relates to cyber incidents, we do 
have an extremely strategic plan in how we notify our victims. 
So, simply put, and I will certainly yield to my colleague from 
DHS to add on here, the FBI and DHS respond to incidents 
jointly. You can almost look at it as the FBI lead in 
essentially the threat response. If a crime has been committed, 
the FBI will open an investigation.
    DHS is the lead for protecting and mitigating whatever 
vulnerability existed that led to the cyber intrusion in and of 
itself.
    Mr. Correa. So let me interrupt you. So, you open up an 
investigation, but a cyberattack happens within seconds. So how 
quickly--who is the lead or if you don't have a lead, how do 
you get that information out to all of your investigative 
agencies, your defense task force, instantaneously? Do you have 
that system in place?
    Mr. Masterson?
    Mr. Masterson. Yes, sure. Thank you for the question.
    Following 2016-2017, one of our top priorities was to work 
with State and local election officials to establish 
communications protocols for exactly this reason. As you may be 
aware, in 2016, DHS, being new to the election space, didn't 
even know who to call in the States if need be. We now have 
points of contact in all the States. We have information 
sharing going to all 50 States.
    Mr. Correa. So, you do have points of contacts with each 
and every State?
    Mr. Masterson. Yes. More importantly, they know how to 
share information with us because the most likely people to 
report a cyber incident are the owners and operators--
    Mr. Correa. So, you do have a specific individual at each 
State that you talk to?
    Mr. Masterson. Yes.
    Mr. Correa. Is the information--are we talking silos here, 
or is the information a two-way street, so to speak? Do you 
have folks at the State level who you trust, who you can work 
with to make sure you are all sharing the information on a 
real-time basis?
    Mr. Masterson. Absolutely, sir. Thank you for that 
question.
    We have points of contact and trusted relationships across 
all 50 States so that they feel comfortable sharing that 
information. Then we are able to take and not just respond to 
that individual incident, but take the technical information in 
that response and distribute it broadly across the entire 
election community so they can take defensive actions or look 
for possible compromises across the entire election 
infrastructure.
    That is the biggest area of improvement since 2016 is the 
amount of information we are receiving from the State and local 
election officials on a regular basis, whether it is reporting 
or those Albert intrusion detection sensors.
    Mr. Correa. So, if Secretary of State Alex Padilla from the 
State of California calls one of you, and it is the wrong 
telephone, do you return his call immediately, or how that 
phone call get channeled into the system to get a quick 
response?
    Mr. Masterson. Yes--
    Mr. Correa. Or is it even a phone call? Do you have a 
digital system where somebody puts in a--types in an alert 
saying something is going on over here, a certain virus is 
being detected, so the rest of the country can essentially get 
on their toes?
    Mr. Masterson. Yes. So, first, Secretary Padilla has my 
number and calls me regularly and is an incredibly active, 
engaged partner with us. You have described it exactly 
correctly. A report to one is a report to across the Federal 
Government. Within CISA's operation center, we have Members of 
the FBI, we have Members of the intelligence community, we have 
Members of our Elections Information Sharing and Analysis 
Center sitting on our operations floor such that as reporting 
comes in, we are able to take that information, analyze it, 
support the victim, but then begin the process of sharing 
information broadly across the sector.
    Mr. Correa. Let me shift very quickly. It was mentioned 
earlier the elections are not just about Election Day, but that 
election period. In California, that is about 3 weeks, as well 
as other States.
    How do you assure that whatever you begin to detect 3 weeks 
out is something that you follow up on and is coordinated?
    Mr. Masterson. Yes, again, working through our Information 
Sharing and Analysis Center, as we get reporting, if there are 
additional facts, additional jurisdictions, we are able to 
coordinate that across the whole of Government and look for 
those trends, look for that information that would connect 
incidents.
    Mr. Correa. Final question for you. I am out of time, but I 
have been through a number of elections. I detected 
irregularities. I try to call my local D.A. So, in 2020, I am 
out there, walking door-to-door. I see something weird 
happening. Who do I call? Or do I Google your telephone number?
    Mr. Masterson. So, depending on the activity--
    Mr. Correa. We talked about coordination of private and 
public sector individuals out there.
    Mr. Masterson. Yes. So, from our perspective at CISA, one 
is you should report any anomalous activity to the local 
election official, the local election administrator, who can 
understand the activity you are seeing and remediate it. In 
addition, we worked with voter protection groups in 2018 and 
will again in 2020 to have points of contact on Election Day so 
that if there is reporting that indicates trends, we are able 
to respond, reach out to the election officials in coordination 
and understand what is going on.
    Mr. Correa. Mr. Chair, I yield.
    Chairman Nadler. The gentleman yields back. I now recognize 
the distinguished vice chair of the Committee and thank her 
once again for beginning the hearing in my absence, the 
gentlelady from Pennsylvania.
    Ms. Scanlon. Thank you, Chairman.
    Ms. Floris, on October 3rd, the FBI, along with DHS, issued 
an advisory to State election officials that the Russian 
government would be using voter suppression tactics to 
interfere in the 2020 elections, and obviously, we are 
extremely concerned about that.
    Can you give us any idea about when the FBI learned about 
these Russian tactics and any gap in time between when the 
threat was identified and when the States were notified?
    Ms. Floris. Thank you for the question, ma'am.
    I cannot speak in specifics about the reporting. I am happy 
to take that back for an after action. I will say as we roll 
into 2020, as we did as we were rolling into 2018, it is our 
goal--and not just the FBI's goal, but across the U.S. 
intelligence community--to report threat information as quickly 
as possible to the audience who needs to hear it, taking into 
account certainly the sensitivity of the sources and methods of 
how that intelligence was collected.
    Ms. Scanlon. Okay. You have talked a little bit about the 
Foreign Influence Task Force that was formed in 2017, and I 
think you described how it was expanded after the 2018 
election, and you described a growing list of foreign 
adversaries that you are looking at. Can you tell us what 
resources--can you describe the number of people who make up 
that task force and whether that has grown from 2017 to the 
present and if you need additional people or resources to do 
that job?
    Ms. Floris. Thank you, ma'am, for the question.
    I am not going to get into specifics about the actual 
number of individuals on the task force. What I will say is we 
certainly surged resources as we rolled into 2018. Our 
intention is that we again are going to surge resources as we 
roll into 2020.
    One thing I will note that individuals on the FITF are not 
the only individuals in the FBI who are working the foreign 
influence threat. Just given the nebulous nature of it, it is 
wedded in so much of what we do in the investigative side of 
the house, from criminal to cyber to counterterrorism as well. 
So, there are agents and analysts and professional staff across 
all 56 of our field offices who work foreign influence and 
investigations tied to foreign influence.
    Regarding your question about resources, as I stated 
earlier, we are always happy to have more resources and can use 
more resources. But the FBI is using everything we can right 
now to mitigate this very serious threat.
    Ms. Scanlon. Okay. Is the reason you can't give us numbers, 
relative numbers between 2017 and the present, because you 
don't have them, or is there some security reason?
    Ms. Floris. There is no security reason. It is just it is 
hard to compare since in 2017, we were focused only on Russia. 
With the expansion to include all global actors who are 
participating in foreign influence operations, it is not 
necessarily a good one-to-one comparison of where we have come.
    Ms. Scanlon. Okay. Mr. Hickey, you mentioned that one 
aspect of the DOJ's efforts to disrupt malign foreign influence 
operatives is stepped-up enforcement of FARA, the Foreign 
Agents Registration Act, which requires people who Act as 
agents of foreign principals to register with our government.
    So, I guess we know some of those enforcement acts that 
would include the guilty plea by Michael Flynn, who was Trump's 
first National Security Adviser; the convictions of the Trump 
campaign manager, Paul Manafort and Richard Gates; the possible 
involvement of Mr. Giuliani and his associates who were 
arrested last week for possible FARA violations. Are those all 
the kind of things you are talking about?
    Mr. Hickey. With respect to that last case, at the moment, 
those are campaign finance violations. I think the charges 
allege a connection to a foreign--foreign location, so the kind 
of activity we want to be alert to.
    Ms. Scanlon. Is included there?
    Mr. Hickey. So, at the moment, the charges are campaign 
finance allegations. I don't think FARA is pled there. Stepping 
back from that specific case, if there are indications of a 
foreign principal covertly trying to influence our politics, 
whether through campaign finance or political activities under 
FARA, that is something that we would be involved in.
    Ms. Scanlon. Okay. The one I am really concerned about, 
which is listed on DOJ's FARA enforcement actions, is the one 
involving the 13 Russian nationals who worked on behalf of the 
Russian government to interfere in the 2016 election by 
manipulating social media to advocate for the Trump campaign 
and against the Clinton campaign because that included 
organizing political rallies in States like Pennsylvania, which 
I represent. They literally took pictures of Pennsylvania coal 
miners and slapped them on these rally things and tried to stir 
up sentiment in a particular direction.
    Does DOJ have the resources it needs to identify and 
prosecute malign actors such as those I mentioned as we 
approach the 2020 election?
    Mr. Hickey. Well, indeed, we do because we have used those 
resources to bring that case. Fortunately, I think the 2020 
budget includes additional funding for the sections I 
supervise, including the Counterintelligence Section, which is 
devoted to foreign influence, countering malign foreign 
influence, in addition to cyberthreats and other 
counterintelligence activities.
    Ms. Scanlon. How about moving proactively before the 2020 
election because, unfortunately, those convictions came 2 years 
after the influence in 2018?
    Mr. Hickey. Yes. As I said in my opening statement, my 
testimony, preventing a crime or disrupting it is more 
rewarding and more important than convicting someone after the 
fact, and we have put a lot of thought into how we will disrupt 
that and whether we will provide notifications to Congress, to 
the public, based on various factors, including wanting to make 
sure that the public is as educated as we can make them.
    Ms. Scanlon. Thank you to all the witnesses. I see my time 
has expired.
    Chairman Nadler. The gentlelady yields back. The gentlelady 
from Texas?
    Ms. Garcia. Thank you, Mr. Chairman.
    As my colleague Ms. Jayapal noted earlier, the Senate 
Intelligence Committee report on Russian interference in 2016 
election states that many--disinformation campaigns and 
cyberthreats do not just manipulate just one platform. The 
information moves across various platforms where a cyberattack 
threatens multiple companies' network security and data 
integrity. There must be greater cooperation with the tech 
sector and between the tech sector and the Government to 
address these issues.
    In fact, we saw today that Facebook removed a network of 
Russian-backed accounts that posted as locals commenting on 
political issues in swing States praising President Trump and 
attacking former Vice President Joe Biden. This is a familiar 
threat that we saw in 2016 and appears to be repeating as we 
approach 2020.
    The report we referenced represents formalized mechanisms 
for collaborations that facilitate content sharing among social 
media platforms to defend against foreign disinformation. This 
occurred with violent extremist content.
    My question is to Mr. Masterson and Ms. Floris, and this is 
simply a yes or no. Have your organizations created a task 
force to coordinate cooperation between Government and the tech 
sector as they did with violent extremist content?
    Mr. Masterson. So, I will defer to my colleague at the FBI 
as well, but yes, we are working within my team at the Election 
Security Initiative. We have a team working on countering 
foreign influence that works regularly with the social media 
and tech sector on these issues.
    Ms. Garcia. Will be ready for 2020?
    Mr. Masterson. Absolutely, yes.
    Ms. Garcia. Okay. Ms. Floris?
    Ms. Floris. Thank you, ma'am, for the question.
    So, within the Foreign Influence Task Force is a 
significant effort to increase engagement with both the tech 
sector and the social media companies. Folks from the FITF meet 
almost monthly with those companies. What we have tried to do 
is create a bidirectional relationship wherein we share with 
them actionable intelligence and threat indicators. They, in 
turn, share with us information related to individuals who have 
violated their terms of service. So, it is certainly one of our 
primary strategies as we roll into 2020.
    Ms. Garcia. Do you have a specific task force that helps 
coordinate all of that, or are you just leaving it up to each 
group to cooperate with each other?
    Ms. Floris. It is actually within the Foreign Influence 
Task Force. That is one of our goals is to coordinate that 
engagement with social media companies as it relates to foreign 
influence.
    Ms. Garcia. All right. So, DHS' May 2019 report detailed 
the disinformation model, including false information 
operations, deep fake technology, and digital message creation 
attacks. Can you please describe the impact of these type of 
threats to our elections and what DHS is doing to combat them, 
particularly regarding misinformation about voter registration? 
Mr. Masterson?
    Mr. Masterson. Yes, thank you, ma'am.
    My team within the Election Security Initiative, starting 
in 2018, began working with State and local election officials 
to talk to them about ways to engage voters about 
disinformation around the election process. Election officials 
see this regularly, whether through social media or other 
activity. It is not new to election Administration.
    So, we wanted to work with them on a variety of products to 
help them engage the electorate on what to look for, but more 
importantly, how to empower themselves as voters. To check 
their voter registration status to make sure it is up to date, 
to make sure they understand when and where to vote, what is on 
their ballot, how the election process works, and most 
importantly, to understand who the trusted voices in their 
communities are. Those local election officials and State 
election officials that have the information they need, so that 
they can head to the polls with confidence.
    Building on that effort, heading into 2020, our team is 
focused on expanding that engagement, working with trusted 
voices across communities--whether that is mayors, governors, 
or others--to engage the American people about how to identify 
disinformation and how to build resilience so they are not 
responsive--
    Ms. Garcia. I heard your testimony on that, but I note your 
written testimony, you also said that you wanted to raise 
public awareness. With 8,800 jurisdictions--one of you all 
testified to that. I forget which one of you. I mean, how are 
you really getting the work out with 8,800 jurisdictions that 
have to be on the lookout for this. I mean, you are talking 
across the country.
    When I saw, again in all testimony, I think you were 
focused on like a handful of States that you have done some of 
these tabletop exercises. So, what are you really doing to make 
sure that all 8,800 election jurisdictions know how to detect, 
report, and work with you on these issues?
    Mr. Masterson. Yes, absolutely. Thank you for the question.
    So, it is twofold. One is by building those relationships 
with the State election officials, they reach the counties, 
too. So, I mentioned in my testimony the Last Mile Initiative. 
That is an initiative geared towards county election officials 
specific to their jurisdictions about how to manage risk and 
threat, including how to talk to voters about the process and 
manage voters' expectations.
    The second is, and you mentioned the tabletops, it is not 
just the individual tabletops with States. We conduct national-
level tabletop exercises where thousands of local election 
officials, in coordination with their State election 
officials--so their chief State election official--participated 
over 3 days this year.
    Then next year, we anticipate a high level of participation 
to talk through exactly what you said. How does information get 
shared? How do we push it down to the locals? Then how do they 
get it back up to us so that we have full awareness and can 
push broadly to the elections community to understand what is 
the threat of risk, and how do they protect the systems?
    Ms. Garcia. Thank you, Mr. Chairman. I yield back.
    Chairman Nadler. The gentlelady yields back. The gentleman 
from Colorado?
    Mr. Neguse. Thank you, Mr. Chair, for holding this 
incredibly important and timely hearing.
    I also want to thank each of the witnesses for their 
testimony and also for your service to our country. I must 
confess I am disappointed by some, not all, but some of my 
colleagues on the other side of the aisle who chose to use 
their time impugning the integrity of former Government 
officials instead of talking today with these distinguished 
witnesses about the subject matter at hand, which is protecting 
our republic and ensuring the integrity of our elections. I 
realize that each of you, in your respective departments, work 
with a wide range of colleagues on precisely that, and I thank 
you for it.
    I reviewed the written testimony of each of the witnesses. 
Ms. Floris, in your testimony, you noted on page 3--and I 
believe you alluded to this in your verbal testimony--that in 
the run-up to the 2018 midterm elections, social media 
companies deactivated more than 1,000 inauthentic social media 
accounts linked to malign foreign influence actors. The 
companies made these decisions informed by dialogue and 
information exchanges with the FBI and other Government 
agencies.
    So, I take from that that you have a robust relationship 
with the social media companies, both the FBI, the task force, 
and obviously other apparatuses of DOJ. I take that to be true. 
Is that a fair estimate?
    Ms. Floris. Yes, sir.
    Mr. Neguse. Okay. I very much appreciate the work that the 
task force and that the FBI and the other entities within our 
law enforcement community are taking, the steps that they are 
taking to protect the integrity of our elections. Part of what 
is the most disturbing for me and gives me the most pause, and 
I suspect some of my colleagues, is what you mentioned earlier, 
Ms. Floris, which is that it is happening in real time.
    Foreign actors, by virtue of the disinformation and 
misinformation campaigns that they are engaged in, utilizing 
the ubiquitous social media engines that we all now use in our 
daily lives, they are changing the way Americans think and 
Americans interact with each other, the way in which we view 
public policy issues.
    I am sure you are familiar--there was a report recently--it 
was covered by CNN--from Graphika, the IRACopyPasta campaign 
issued on October 21, 2019. Russian accounts posing as 
Americans on Instagram targeted both sides of polarizing issues 
ahead of the 2020 election. Are you familiar with this report?
    Ms. Floris. In title only, sir.
    Mr. Neguse. In title only? Okay.
    Ms. Floris. Yes, sir.
    Mr. Neguse. Mr. Hickey, are you familiar with the report?
    Mr. Hickey. Same answer.
    Mr. Neguse. All right. So just for the benefit, with 
unanimous consent, would ask that this report be submitted to 
the record, Mr. Chair.
    Chairman Nadler. Without objection.
    [The information follows:]

      

                   MR. NEGUSE FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Neguse. So, I would just quote from this, and then we 
will get to my question. On October 21, 2019, Facebook 
announced the takedown of 50 Instagram accounts posting about 
U.S. social and political issues in the 2020 election. Facebook 
concluded that the operation originated from Russia and showed 
``some links'' to the Internet Research Agency, IRA, and the 
Russian troll farm that previously targeted U.S. audiences in 
the United States presidential election in 2016.
    These accounts are attacking Kamala Harris, Elizabeth 
Warren. Almost half of the accounts claim to be based in swing 
States, especially Florida. What they are doing is not all that 
dissimilar from what they did before, focusing on divisive 
content.
    Much of the content ``posted by these accounts was divisive 
and served to reinforce each target group's hostility toward 
other groups or individuals.'' Often the sets of accounts 
posted on both sides of divisive issues. For instance, police 
violence was a topic addressed by accounts in the set, some of 
them posing with hashtags such as ``police brutality'' and 
``black lives matter'' and other with, quote--or 
#bluelivesmatter and #backtheblue.
    I know you are familiar with these accounts--I suspect, 
these kind of postings from before. Correct? Ms. Floris?
    Ms. Floris. Yes, sir.
    Mr. Neguse. All right. Mr. Hickey?
    Mr. Hickey. Yes, sir.
    Mr. Neguse. So, the question I have. Clearly, our law 
enforcement agencies are working very hard to try to combat 
this disinformation, but it strikes me that the root cause, or 
at least one of the root causes, of the disinformation is the 
reality of anonymous accounts in these social media engines. 
There has been a lot of discussion as to whether or not 
universal verification, as opposed to having to constantly be 
reactive working with these social media companies like 
Facebook is the prime example, that instead, we could get at 
the root cause. It would eliminate so much of this 
disinformation and misinformation that is being perpetrated at 
the American public.
    So, I would like to kind of get your sense, Ms. Floris and 
Mr. Hickey, as to whether or not that is something that your 
agencies, respectfully, have discussed internally and whether 
or not it is something you might recommend we take up as a 
matter of discussion on a policy basis.
    Mr. Hickey. So, sir, I will agree with you that the 
anonymity of the Internet generally poses a broad cybersecurity 
challenge. I don't know I would say it is the number-one reason 
why we have so many challenges of security on the Internet with 
respect to foreign influence and others, but it is a leading 
one. How you address that, I think, is very tricky. How you 
have verification or authenticity in a way that you know who is 
emailing--is sending you a message is actually the person they 
claim to be.
    At the moment, we are--I am not in a position to comment on 
legislation or propose it. What we are trying to do is where we 
see indications that someone isn't who they claim to be, along 
the lines of what DAD Floris said, we will try to--and they tie 
to individuals that we are investigating, we will try to tip 
the providers to it so they can pierce behind that 
anonymization.
    We are also currently prosecuting entities that we allege 
are tying to the Internet Research Agency in district court 
right now, which limits my ability to comment on it. But 
certainly, we are hoping to impose consequences for activity 
related to 2016.
    Chairman Nadler. The gentleman's time has expired. The 
gentlelady from Georgia?
    Mrs. McBath. Thank you, Mr. Chairman. Thank you so much for 
convening this hearing today.
    Thank you, each and every one of you, for being here. 
Voting, I think all of us would agree, is just basically the 
foundation of our democracy, and protecting our ability to be 
able to vote and protecting our voting infrastructure from 
foreign interference is paramount.
    In Georgia, where I represent, we have learned that before 
the 2016 election, a Russian agent visited the websites of Cobb 
and Fulton counties, counties that I represent, looking for 
vulnerabilities. While it appears that the agent didn't gain 
access to our election system in 2016, we continue to face 
attacks to this very day. Just last month, it was reported that 
two computers were stolen from both--stolen from Fulton County, 
there again, in my district. These computers contained very 
sensitive information that relates to every single voter in 
Georgia.
    So, as we take on these threats I want to make sure that we 
are working to build a collaboration and transparency across 
the Federal Government, States, and for the American people.
    I want to ask each of you about how we can increase this 
transparency while also improving election security. Mr. 
Hickey, I will start with you. I am curious about your thoughts 
on whether States should be treated differently than other 
victims that DOJ prosecutes, in terms of sharing victims' 
identities. For example, it was reported that the election 
systems in two Florida counties were breached, but the 
government has not identified which Florida counties were 
breached. On one hand, we want to encourage states to represent 
and to talk about these vulnerabilities, to report them, and 
sharing State-specific information publicly could discourage 
such reporting. On the other hand, we want the public to have 
confidence in our election system, and we want them to have 
confidence in the transparency of our election process.
    So, indeed, you testified--and I am sorry that I was not 
here this morning, but I have your testimony--you testified, 
and I quote, ``Exposure of foreign influence operations 
ultimately may be one of the best ways to counter them,'' end 
quote. So, can you speak how you think the Federal Government 
should navigate disclosing such victim information in the 
election security context?
    Mr. Hickey. Thank you, ma'am. I appreciate your nuanced 
treatment of that issue, because it does implicate a number of 
competing values. We do, as the vice chair of the Committee 
said, when she gave her opening statement, we want to encourage 
and guard the trust of the States so that they are willing to 
call the FBI and not worry that we are going to release their 
identities or the problem publicly.
    Two, I think, core principles. One, we think it is a matter 
for State officials to decide when they disclose to their 
publics what the threats to their particular infrastructure 
have been. So, we will leave it to Florida officials to 
communicate with the voters in that State, or any other State, 
hey, we worked with the FBI, we have remediated, we have done 
X, Y, and Z. We are going to leave it to that sovereign State.
    The second key principle, I think, is that it is ultimately 
State-level officials who are politically accountable for 
certifying the results of an election. So, we are currently--
the FBI is currently reviewing guidance on how to handle victim 
notification in the context of elections. It is not out yet, it 
is not finalized yet, but I anticipate that we will continue to 
notify system owners and operators, which may be local 
officials, but also providing a heads-up to the politically 
accountable chief State election official or board, so that 
they are aware of what the FBI is doing at a more local level.
    Mrs. McBath. Thank you. Mr. Masterson and Ms. Floris, I 
would like to hear from each of you very briefly on your 
agency's transparency policies and whether more transparency is 
actually needed.
    Mr. Masterson. So, I will speak to that very briefly. So, 
as I mentioned prior in the hearing, we have established 
communications protocols with the State and local election 
officials on how information will be reported, to empower them 
to speak to either activity targeting their systems or possible 
incidents. Then, most importantly, being transparent in sharing 
technical indicators broadly in an unclassified environment to 
the entire elections community about what threats are targeting 
election systems, so that they can not only take defensive 
measures but talk to their voters about the threat being real 
and the steps that they are taking to secure the process so 
that voters know that they are taking it seriously and 
responding.
    I think this is where running elections at the State and 
local level really is critical. Voters have the ability to 
engage directly with those who run elections and have their 
questions answered. They can be poll workers. They can watch 
pre-election testing of the system. In many States they can 
watch post-election auditing. So, how can we empower those 
election officials with that information, whether about threat 
or activity, to talk directly to the voters and respond.
    Ms. Floris. Thank you, ma'am, for your question. Just one 
thing I can add in addition to my colleagues on the panel. As I 
mentioned in the opening statement, when it comes to being 
transparent, one of the prongs of our strategy within FITF is 
to share intelligence and information as quickly as possible 
and to whoever needs to receive that information. Certainly, 
that is not a decision the FBI can make unilaterally. It 
involves all Members who are dabbling in the election security 
space, including individuals outside just the four Members on 
this panel. Rest assured, it is certainly one of our strategies 
to be as forward-leaning as we can in sharing actionable 
intelligence to the people who need to receive it.
    Mrs. McBath. Thank you.
    Chairman Nadler. The time of the gentlelady has expired. 
The gentlelady from Pennsylvania?
    Ms. Dean. Thank you, Mr. Chairman, and I want to sincerely 
thank all of you for being here and representing to us the 
important work you are doing to protect our elections. We take 
this very, very seriously, and I can see that you do too. So, 
for the viewing public, we have the Department of Homeland 
Security. We have the FBI. We have the Department of Justice. 
We have U.S. Election Assistance Commission. You are so 
important on the front line, and we are here to partner with 
you.
    I will start this question kind of quickly to Ms. Floris. 
On October 8th, just this month, 2019, the Senate Intelligence 
Committee published its second volume of its investigation on 
Russia's interference in the 2016 elections and the U.S. 
Government's response to that attack. The report concluded that 
in October of 2017, a counterintelligence division at FBI 
tasked an outside contractor to identify Russian influence 
activity on Twitter. As the report explains, that suggests, 
quote, ``FBI either lacked resources or viewed the work in this 
vein as not warranting more institutionalized consideration.''
    Ms. Floris, the Senate committee's report is concerning. Do 
you believe you have enough resources at FBI to investigate and 
protect our elections?
    Ms. Floris. Thank you, ma'am, for that question. As I have 
said, we can always use more resources, but that being said, we 
are throwing everything we have against the foreign influence 
threat. We have shifted resources to the Counterintelligence 
Division for that very purpose. We continue to engage with all 
56 of our field offices to ensure that they are tracking the 
threat as closely as we are within the FITF.
    Ms. Dean. So, are you using--how often are you using 
outside contractors, or are you moving away from that, 
particularly in the issue of election security?
    Ms. Floris. Ma'am, I can't speak specifically on the use of 
outside contractors within our workforce. We do have 
contractors throughout many parts of the FBI. I can't 
specifically as to how many are working on the foreign 
influence threat. I can certainly take that back.
    Ms. Dean. Yeah, we would love that information if you could 
share it with us. Can you tell us whether we have ever, or 
would ever use an outside contractor from, say, Russia, Iran, 
China, North Korea? Do you know?
    Ms. Floris. Ma'am, I would defer that question to our Human 
Resources Division and our Security Division.
    Ms. Dean. Okay. We will follow up.
    I would like to ask each of you the same thing. Do you have 
adequate resources at each of your departments and do you use 
outside contractors? I will start with Mr. Masterson.
    Mr. Masterson. Thank you, ma'am. We have the resources we 
need to build on the success that we had in 2018 and continue 
to support State and local election officials. Certainly, with 
more resources comes greater capacity and responsiveness, the 
ability to increase support from the EI-ISAC or build on 
something like remote penetration testing. But we certainly 
have what we need to build on the success, and I defer you also 
to Human Resources and Security.
    Ms. Dean. Mr. Hovland?
    Mr. Hovland. I would say that the Election Assistance 
Commission absolutely does not have the resources that we need. 
I would also echo that the fiscal year 2018 $380 million that 
went to the States, while that was a great first step it did 
not provide the States with the funding levels to solve all the 
challenges that they face. As I mentioned earlier, we have seen 
people prioritizing from a menu of options, but there are a 
number of things that State and local election officials could 
do, and additional funding is crucial to help them do that.
    Ms. Dean. We would love that information. Thank you for 
sharing that with us.
    Mr. Hickey?
    Mr. Hickey. Ma'am, briefly, the 2020 budget would increase 
funding for the Counterintelligence Section, which I supervise, 
which would help our efforts to confront maligned foreign 
influence and national state-sponsored hacking.
    I don't think we employ contractors specifically for this 
area of work, though, of course, we do have contractors working 
in the Justice Department, and they are vetted, and I will 
defer to others to explain how they are vetted.
    I will say choosing contractors sometimes reflects our 
judgment. There are folks with particular technical expertise 
that we can bring on and use them in our, you know, foreign 
investment security reviews. We have contractors on board and 
use them because they have particular experience that we, as 
lawyers, do not have.
    Ms. Dean. Do you use any foreign contractors from, say, 
Russia, China, Iran?
    Mr. Hickey. What I do know is that we vet contractors, and 
they have to be screened for a security clearance. So, I can't 
speak to their nationalities but I know they would be vetted.
    Ms. Dean. Okay. What is concerning to us, or to me, is that 
the President's fiscal year 2020 budget proposal would cut 
funding to CISA, especially troubling since 2020 is the 
Presidential election year. Each of you, Robert Mueller, and 
many others have said the threat is persistent, pervasive, 
sweeping, systematic.
    Maybe I will end on this question, real quickly. I wanted 
to follow up, Ms. Floris, that you talked about the 
disinformation. Could you be specific as to the disinformation 
that you were able--give us a concrete example of what it 
looked like? How were we disinformed? How were voters 
disinformed? Thank you, Mr. Chairman.
    Ms. Floris. Ma'am, are you talking about leading into the 
2016 election--
    Ms. Dean. Yes.
    Ms. Floris. --or 2018 election? I can't speak in specifics 
about that right now, but I can certainly take that question 
back.
    Ms. Dean. Okay. Thank you very much. Thank you.
    Chairman Nadler. The gentlelady yields back. The gentlelady 
from Texas.
    Ms. Escobar. Thank you, Mr. Chairman, and many thanks to 
our witnesses. I really appreciate your presence here today and 
your work.
    I am still very concerned, and I think the American public 
should still be very concerned about our elections approaching 
in 2020. We know that three years ago Russia was wildly 
successful in attacking our democracy by attacking our 
elections, and despite the information that we have and despite 
the unified voice from our intelligence community, we have a 
President who is cutting resources to our election security. It 
is stunning to me that the President of the United States would 
be willing to erode our election security instead of fighting 
to keep it safe.
    Our voting machines are still outdated. Many of the 
vulnerabilities remain today. So, we should all be very 
concerned, and I hope that you all will continue your work to 
confront the obstacles ahead of you and to inform the American 
public.
    With that said, we know that Special Counsel Mueller's 
indictment against several Russian entities noted that one of 
the ways that they interfered with our 2016 election was by 
encouraging minority voters not to participate in elections. In 
fact, the Pew Research Center found that in 2016, African 
American turnout dropped by 20 percent, despite the fact that 
we had record turnout in the country. The report detailed the 
complex strategies Russia used to target the African American 
community and to discourage African Americans from voting.
    Starting with Mr. Masterson, for each one of you, please, 
what steps specifically are you taking to combat interference 
efforts to discourage minority groups from voting, and are 
those steps sufficient?
    Mr. Masterson. Thank you for your question, ma'am. Our 
focus, in coordination with the FBI's Foreign Influence Task 
Force, is really on building resilience in the American people, 
talking to them about how they are being targeted with 
disinformation, where the source of information, the trusted 
source of information regarding the election process or 
otherwise would be.
    So, we have created a variety of products and then are 
working with various communities and groups, so reaching out to 
groups like the NAACP, AARP, or others, to provide those 
resources to them, recognizing they are the trusted voice in 
that community that can talk to their Members about how they 
may be targeted with disinformation and how to respond.
    Ms. Floris. Thank you, ma'am, for your question. I will 
just piggyback on that response, with this whole concept of 
media literacy with the American public. We cannot stress 
enough to every American city to understand when, how, where to 
vote. Your vote matters and it is up to you to have that media 
literacy to understand essentially truth in where you are 
obtaining your information.
    On the more practice side of the house, again, I will hit 
on our engagement with social media companies and our 
willingness to engage with them to share threat indicators as 
it relates to disinformation, when we know that a foreign actor 
is trying to propagate disinformation using their platforms and 
continuing that dialogue and engagement with the social media 
companies as we roll into 2020.
    Mr. Hickey. DAD Floris referred to nefarious actors. Part 
of what the Justice Department does is help the FBI investigate 
those actors. So, we are often there to obtain legal process of 
various forms, to investigate what foreign actors are doing, 
and that information can be part of the information that 
ultimately is shared with the providers, to confront the 
disinformation you are suggesting.
    Mr. Hovland. When the disinformation crosses over to talk 
about the election process or election Administration issues, 
like when you vote or how to register or how to participate, 
that would certainly be where it would fall into our interest 
area. In doing that we are really working with State and locals 
to encourage their voters or their citizens to participate, to 
be able to identify trusted sources of information, be able to 
check their voter registration to make sure it is updated and 
accurate, and those are--that is where our focus has been.
    Ms. Escobar. Ms. Floris, I have two follow-up questions for 
you.
    Number one, you mentioned working with social media outlets 
on preventing the spread of disinformation. We sometimes have 
American candidates repeating disinformation provided by 
Russia, for example. Do you alert social media about that kind 
of disinformation that is coming from American candidates? That 
is number one.
    Number two, what specific steps did you take, if any, to 
identify whether there were foreign efforts, similar to those 
used in 2016, to discourage minority voters, whether they were 
used again in 2018?
    Ms. Floris. Thank you, ma'am, for your question. I will 
address your first question. The FBI cannot be the truth 
police. It is not our job to police content as to whether true 
or false information is being propagated. Again, we start with 
the foreign actors, that foreign aspect of what we do that is 
of investigative interest to the FBI. That is the information 
that we then provide to the social media providers, and it is 
really up to those providers to determine whether or not that 
content violates their own terms of service.
    Regarding what steps we saw in 2018, if we saw the same 
activity that we saw in 2016, certainly not at the same level, 
and I really tout that to the success of the interagency 
collaboration, and again, our work with the social media 
companies.
    Ms. Escobar. Thank you. I yield back, Mr. Chairman.
    Chairman Nadler. The gentlelady yields back. The gentleman 
from Georgia?
    Mr. Johnson of Georgia. Thank you, Mr. Chairman, and thank 
you all for being here today.
    In February of 2019, DOJ and DHS issued a joint statement 
concluding that there was, quote, ``no evidence to date that 
any identified activities of a foreign government or agency had 
a material impact,'' end quote, on the 2018 election. Now, Mr. 
Hickey and Mr. Masterson, your agencies reached this conclusion 
because the intelligence community didn't detect a threat. 
Correct?
    Mr. Hickey. I think that is more or less right. The EO, 
which is what the report was issued under, sets forth a two-
step process--the IC, including the FBI, gather reports, and 
then we evaluate the materiality of any impact.
    Mr. Johnson of Georgia. I understand, but the intelligence 
community did not detect a threat, and that is why you issued 
your proclamation that no evidence to date was that any 
identified activities of a foreign government had a material 
impact on the election.
    State and local officials also did not detect a threat. 
Isn't that correct?
    Mr. Hickey. Well, so I think the IC did gather a report of 
actions that had the intent and purpose of interfering. So, 
when you say threat, threat means, to us, intent and purpose. 
State election officials--
    Mr. Johnson of Georgia. They didn't detect a successful 
threat.
    Mr. Hickey. That is my understanding.
    Mr. Johnson of Georgia. Okay. All right. Thank you.
    Now you concluded also that Albert sensors did not detect a 
threat. Correct?
    Mr. Masterson. So, Albert sensors regularly, across the 
country, regularly detect possible malicious activity against 
election infrastructure.
    Mr. Johnson of Georgia. None was detected for 2018.
    Mr. Masterson. I am not aware of any foreign adversary 
interfering or gaining access to election infrastructure in 
2018.
    Mr. Johnson of Georgia. Now isn't it possible that an 
attacker could have accessed and changed voter databases 
without being detected in 2018? Isn't it possible? Yes or no.
    Mr. Masterson. So, we have no information to suggest that 
occurred.
    Mr. Johnson of Georgia. All right. Fair enough. Now Mr. 
Hovland, your testimony was that 8,000 local jurisdictions 
conduct elections. Many of those local jurisdictions used 
direct recording electronic voting machines, also known as 
touch-screen electronic voting machines, in the 2016 
presidential elections and in the 2018 presidential elections. 
In investigating election interference after the 2016 
presidential election, how many of the tens of thousands of 
direct recording electronic voting machines used in that 
election were subjected to a forensic audit by any Federal 
agency?
    Mr. Hovland. I am not aware of forensic audits that were 
performed.
    Mr. Johnson of Georgia. What about any other type of 
testing or analysis on any direct recording electronic voting 
machines used in the 2018 elections?
    Mr. Hovland. I would say that as far as the Election 
Assistance Commission goes, that--
    Mr. Johnson of Georgia. Are you aware of any Federal 
agencies that have conducted any analysis of direct recording 
electronic voting machines used in the 2018 or 2016 elections?
    Mr. Hickey. So, we haven't been asked, and I don't think it 
is our role to audit election systems. The States certify the 
accuracy of the votes.
    Mr. Johnson of Georgia. I understand. My question is just 
simply having the Federal Government use its resources to look 
at or conduct a forensic audit of any voting machines, any 
direct recording voting machines, either in 2016 or 2018. It 
appears that the answer is no. Would anybody disagree with 
that?
    Mr. Hickey. To the best of my knowledge that is correct. We 
have not been asked to second-guess the State certification of 
accuracy.
    Mr. Johnson of Georgia. Okay. I am concerned about the 2020 
election, especially considering the insecurity of our voting 
machines that has come to light in the past three years, and I 
would like to hear from the representative agencies the 
response plan should our elections be successfully hacked in 
2020. What would be the Federal response to a successful 
hacking in 2020?
    Chairman Nadler. The gentleman's time has expired. The 
witnesses may answer the question.
    Mr. Masterson. Thank you, sir. I will keep it short. DHS 
stands prepared to offer a number of incident response 
services, including deployment of teams to the locality or 
State, depending on the impacted infrastructure, in order to 
conduct analysis and work to mitigate the impacts of a possible 
cyber intrusion on election infrastructure. In addition, we 
have numerous analysis capabilities remotely that we can 
provide to help determine if there is, in fact, an intrusion, 
and the best way to mitigate it.
    Ms. Floris. Sir, the FBI would work certainly in concert 
with CISA if there were an intrusion detected. We would use all 
our investigative might to ensure that we can determine 
attribution and potentially bring about criminal charges, if 
need be.
    Mr. Hickey. Obviously we try to prevent it. If we got 
indications that a State were being targeted, we would try to 
help them batten down the hatches before an intrusion was 
successful.
    Mr. Hovland. I would say, on a positive note, that both 
with the fiscal year 2018 $380 million and other resources that 
the number of paperless machines that are left out there has 
decreased substantially, and over 90 percent of Americans will 
be voting with some type of paper audit trail.
    Mr. Johnson of Georgia. Thank you.
    Chairman Nadler. The gentleman's time has expired. The 
gentlelady from Florida.
    Ms. Mucarsel-Powell. Thank you, Mr. Chairman. Thank you for 
coming here this morning to such an important hearing.
    It has been confirmed, and we have talked about this 
several times today, that all the main intelligence agencies 
confirmed that Russia interfered in the 2016 elections in a 
sweeping and systematic fashion, and it wasn't just a single 
attempt. We have heard from several witnesses in prior hearings 
that they are actually engaging in interference currently, as 
we speak.
    So, I want to ask this, and I think Chairman may have asked 
this previously, but I want to get an answer from each and 
every one of you. Do you think it is appropriate for a sitting 
President, or any elected official, for that matter, to ask a 
foreign government to interfere in our elections?
    Mr. Hovland. No.
    Mr. Hickey. I don't like the word ``appropriate,'' ma'am, 
but I will say that we would urge anyone who has indications of 
such interference to come to the FBI and work with us so we can 
investigate criminal violations.
    Ms. Floris. I would echo what my DOJ colleague said. We are 
certainly interested in any criminal activity as it relates to 
foreign influence.
    Mr. Masterson. No.
    Ms. Mucarsel-Powell. Thank you. During the 2016 hacking, 
Florida, my home state, was hacked and singled out by the 
Russian government. They targeted voter registration systems 
and they were able to successfully hack into at least the 
systems of two different counties. We actually got a security 
briefing from the FBI and others on that issue.
    So, one of the things that I asked during that briefing is 
if they could say with certainty that hackers didn't manipulate 
the data, and I was told that they actually could not, that you 
could not say with certainty that these hackers did not 
manipulate the data. Can you confirm that again with me today, 
please?
    Mr. Hickey. I wasn't at the closed briefing, and I don't 
know what touches on classified or unclassified information. 
What I do know is we have said we have no indication to believe 
that there was any material impact on the ability to vote or 
the counting or tabulation of votes. I believe to be correct.
    Ms. Mucarsel-Powell. I asked specifically about the data. 
That is why I think that they answered that. Ms. Floris?
    Ms. Floris. I would just echo what my DOJ colleague said, 
ma'am. I certainly was not at the closed hearing, but I have no 
reason to doubt what was briefed to you during that time.
    Ms. Mucarsel-Powell. Thank you. I know that there is a 
group now in DHS working with Federal, State, and local 
officials to secure our elections. It is called the Election 
Infrastructure Subsector Government Coordinating Council. The 
council is working to improve security protocols and works with 
local and State election officials so they can respond to 
threats quickly.
    So, Mr. Masterson and Mr. Hovland, is Florida part of that 
council?
    Mr. Masterson. Yes. Florida actually has two local 
representative that are on the Government Coordinating Council, 
and work with us.
    Ms. Mucarsel-Powell. Can you just very briefly describe the 
progress of that group?
    Mr. Masterson. Absolutely. The growth and engagement of the 
Government Coordinating Council since its establishment in 2018 
has been great. We have 24 State and local Members that 
represent a vast array of the community. So, they represent 
secretaries of state, State election directors, local election 
officials from across the country. The purpose of that group is 
to inform CISA's approach to helping them secure elections. So, 
what is their view of risk, what services support and 
information sharing would be help them manage that risk, and 
how do we grow that trusted relationship so that they feel 
comfortable sharing back with us.
    Ms. Mucarsel-Powell. Thank you. I am going to move on now 
to a different topic here. Mr. Masterson, on May 1st, 2019, 
Director Krebs testified that the President still had not 
received a briefing on Russia interference in the 2020 
elections. Yes or no? Are you aware of DHS briefing the 
President on Russian interference in the 2020 elections?
    Mr. Masterson. I am not aware but that doesn't mean it 
didn't happen. I am operational so that is above my level. I 
will say we engage regularly in coordination with the NSC 
across the whole of government on this election security work.
    Ms. Mucarsel-Powell. Do you know if your agency has tried 
to meet with the President on election security?
    Mr. Masterson. I don't know but that doesn't mean it hasn't 
happened.
    Ms. Mucarsel-Powell. Do you think it would be important for 
the President to understand the threat picture facing the 2020 
elections before he allocates resources to agencies on election 
security?
    Mr. Masterson. I think the work we have done across the NSC 
has provided the information and work that we have done to 
coordinate that, and so I assume that is part of the NSC's 
coordination with us.
    Ms. Mucarsel-Powell. Okay. Thank you. The same question, 
Ms. Floris and Mr. Hickey. How many times has your agency met 
with the President to discuss election security?
    Ms. Floris. Thank you for the question, ma'am. I can't 
answer that specifically. Again, that doesn't mean that it has 
not happened. I just don't know personally.
    Mr. Hickey. Same answer, ma'am.
    Ms. Mucarsel-Powell. Okay. Do you think it would be 
important, though, for your agencies to discuss election 
security with the President?
    Mr. Hickey. I think it is important for the President to 
understand the national security threats facing the country, 
yes.
    Ms. Mucarsel-Powell. Ms. Floris?
    Ms. Floris. I think it is important for everyone to 
understand the national security threats facing the country, 
especially as it relates to election security.
    Ms. Mucarsel-Powell. Thank you so much.
    Chairman Nadler. The gentlelady yields back.
    This concludes today's hearing. We thank all our witnesses 
for participating. Without objection, all Members will have 
five legislative days to submit additional written questions 
for the witnesses or additional materials for the record.
    Again, we thank everyone. Without objection, the hearing is 
adjourned.
    [Whereupon, at 12:39 p.m., the Committee was adjourned.]



      

                                APPENDIX

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
